<html>
<title> - THE ADMINISTRATION'S STRATEGY TO CONFRONT ISIS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     THE ADMINISTRATION'S STRATEGY 
                            TO CONFRONT ISIS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2015

                               __________

                           Serial No. 114-52

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-917 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                         
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General John Allen, USMC, Retired, Special Presidential Envoy for 
  the Global Coalition to Counter ISIL, U.S. Department of State.     5
Brigadier General Michael Fantini, USAF, Middle East Principal 
  Director, Office of the Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense.....    13
Brigadier General Gregg Olson, USMC, Deputy Director for Middle 
  East, Joint Staff Strategic Plans and Policy, U.S. Department 
  of Defense.....................................................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General John Allen, USMC, Retired: Prepared statement............     9
Brigadier General Michael Fantini, USAF: Prepared statement......    15

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    55
Written responses to questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    56
  The Honorable Ted S. Yoho, a Representative in Congress from 
    the State of Florida.........................................    61

 
             THE ADMINISTRATION'S STRATEGY TO CONFRONT ISIS

                              ----------                              


                        THURSDAY, MARCH 26, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 8:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. This 
morning, the committee continues its examination of the threat 
that is posed to the Middle East and to the United States by 
ISIS. And one of the things we are trying to do here is to look 
at the administration's strategy to destroy this brutal 
terrorist organization and assess the proposed authorization of 
military force to be used. They have sent an authorization to 
us.
    The goal of ISIS, I think, are pretty clear. It is to wreck 
everything and every person in its path to establish a 
caliphate and then fight to expand that caliphate. ISIS 
affiliates are growing in power and presence throughout the 
region. In the last few weeks, we have seen attacks in Yemen. 
We have seen attacks in Tunisia and Libya. What is less clear 
is the administration's approach and its determination to 
tackle this threat.
    Many of you know that for some time some of us on this 
committee have been pushing the idea of hitting ISIS from the 
air. We went through many months of ISIS going town by town in 
Syria, and many in Iraq, without the use of U.S. air power 
against ISIS. As a consequence, ISIS ended up taking many major 
cities across the region and ended up taking the Central Bank 
of Mosul. If we count the number of sorties against ISIS to 
date, there are 2,959 that have been flown. If you compare that 
to the 116,000 air strikes during the First Gulf War when Iraq 
moved 40-some divisions into Kuwait, you get an idea of the 
difference in magnitude between the way this has been conducted 
versus the very real deterrence that we utilized in the past.
    We also have the fact that at least among the Canadian 
forces, their spotters are forward deployed so they can hit 
their targets when they call those targets in. With the U.S. 
forces, our forces are not forward deployed, so when you call 
in an air strike, you are not forward deployed to do it. There 
is some question about how effective that is going to be.
    Most Americans would be puzzled to learn about a lot of 
this and I think the piecemeal attacks that the Obama 
administration has been systematically using here has been 
squandering our air power advantage. At least one observer 
tells us that is the case. Adding to the problem, the regional 
forces on the ground these air strikes are supposed to be 
supporting are badly under supplied. After 7 months of 
fighting, this committee is still receiving troubling reports 
from the Kurdish Peshmerga and visits from the Kurdish 
representatives about how outgunned their men and women are on 
the front line. Now 30 percent of their battalions are female 
and those women are fighting against ISIS. They are fighting 
with small arms and they have yet to receive the artillery, the 
long-range mortars, and the anti-tank weaponry that they have 
repeatedly asked for.
    This morning, Ranking Member Engel and I are reintroducing 
legislation to allow U.S. arms to be sent directly to the 
Kurds. They are strung out on a 500 plus mile front against 
ISIS. These brave fighters, these women and these men and these 
battalions, need better equipment to defeat ISIS and we can't 
allow Iran, through its influence over Baghdad, to continue to 
prevent that type of weaponry from coming from the center. So 
we should provide or we should sell it to them directly.
    And the Sunni tribal fighters who would be central to this 
fight are yet to trust Baghdad, as you know. Strong local 
police and provisional national guard forces are desperately 
needed to protect Sunnis in Anbar Province and elsewhere. Into 
the void on the ground in Iraq have stepped Iranian-backed 
Shi'ite fighters, the leading force behind the recent Tikrit 
offensive.
    Senior U.S. officials have put this development in positive 
terms. The reports indicate that U.S. intelligence and air 
power will now support this Iranian-backed mission. The 
Washington Post wisely cautioned in an editorial this week, 
``the growing power of the militias with their brutal tactics, 
sectarian ideology, and allegiance to Iran's most militant 
faction has become as large an impediment to the goal of 
stabilizing Iraq'' as ISIS. Shi'ite militias taking on ISIS may 
serve the immediate interest of killing jihadis, but it is hard 
to see how empowering Iran's proxies is in the short, medium, 
or long-term interest of an inclusive Iraq or stable Middle 
East.
    The fear that many of us have is that Sunni Iraqis who have 
been tortured by ISIS, will get the same brutal treatment by 
their Shi'ite militia ``liberators'' and that would fuel 
endless conflict.
    To see how this is viewed in the region with respect to 
Iran being on the march, the other day the Iranians boasted 
that they had taken four Arab capitals. Well, in taking Yemen, 
you have set off a situation now where the Saudis and others 
are reacting, a 10-nation coalition is reacting and the Saudis 
are making preparations to hit that Iranian proxy on the 
ground. We know that Quds Forces and other Iranian agents have 
helped organize and toppled that government and now that the 
Iranian regime is crowing about it, other countries in the 
region are taking action and this is complicating the 
circumstances here. In other words, Iran is very much 
complicating the ability of the region to get some stability.
    Political reconciliation in Baghdad must be central to U.S. 
policy. The committee will be interested to learn what the 
administration is doing to press Prime Minister Abadi to ensure 
he doesn't become former Prime Minister Maliki, a disastrous 
sectarian.
    And we will hear today, our U.S. strategy is focused on 
Iraq first. That is what we will be told. But until the 
meltdown of Syria, where General Petraeus termed a 
``geopolitical Chernobyl'' is capped, until that meltdown is 
capped, ``it is going to continue to spew radioactive 
instability in extremist ideology over the entire region.''
    Last fall, Congress voted to authorize training and 
equipping the Syria opposition forces, but to our great 
frustration, that is still not up and running and when pressed 
on the path forward in Syria, most administration officials 
seem to suggest we can figure it out later. Our slow action is 
creating a crisis of confidence among our allies.
    Our witnesses are here to explain the President's strategy 
and when the committee returns in April, we plan to hear more 
from the Secretary of State and Defense about the President's 
AUMF request.
    I will now turn to the ranking member for his opening 
statement.
    Mr. Engel. Mr. Chairman, thank you for calling this 
important hearing. General Allen, General Fantini, General 
Olson, welcome. We are delighted that we have such a 
distinguished array of generals to really speak with us this 
morning. Thank you for appearing here today and thank you for 
your tireless service to our country.
    The main purpose of this hearing is to get an update on the 
progress of the anti-ISIS coalition and the significant 
challenges that remain. But we must also address the elephant 
in the room, in my opinion, the need for a new authorization 
for the use of military force or AUMF.
    As I have said again and again, this committee and this 
Congress have an important role to play in our foreign policy. 
I believe that is the case with our negotiations over Iran's 
nuclear program and the same must hold true when it comes to 
our effort against ISIS. Congress needs to play its part. And I 
will resist any attempt to marginalize Congress fulfilling its 
constitution role.
    By passing the new AUMF, our service members, the brave men 
and women in uniform risking their lives against this enemy 
would feel the full support of Congress. Our coalition partners 
would see that the American Government is united in our 
commitment to degrade and destroy this enemy. Congress would 
reassert the important role we are empowered to play by the 
Constitution. And we, as lawmakers, would show that Congress 
doesn't shrink away from the tough decisions because if we do, 
we are sending a message that Congress may put itself on the 
sideline the next time a crisis arose and the time after that 
and the time after that. That is simply unacceptable.
    The language sent to us by the President with the AUMF 
isn't perfect, but I believe it is a good start. So let us work 
together to craft a bipartisan AUMF. Let us tailor it to the 
needs of our troops and this mission because everything we are 
dealing with today is taking place under the shadow of this 
vital unfinished business.
    I know that we are talking a lot about Iran these past days 
as an impending agreement, the deadline for one is rapidly 
approaching, and talk about an AUMF seems to have faded in the 
background. But I really believe that that is something that 
cannot fade in the background. It is something that we have to 
tackle and this is the committee to do so. And we will do so.
    Generals, we look to you for leadership in clearly 
explaining our strategy to degrade and defeat ISIS to this 
committee and to the American people. In my view, the 
international coalition has made some real progress, conducting 
military operations and advising our partners on the ground, 
working to alleviate the humanitarian crisis, cutting off 
funding sources for ISIS, taking steps to stem the flow of 
foreign fighters and pushing back against the toxic message of 
ISIS propaganda. This strategy is making a real difference. 
ISIS is losing ground. Much of its top leadership has been 
taken out. Obviously, we still have much more to do.
    Thanks to our training, Iraqi security forces are improving 
so that they can better deal with the ISIS threat. Regional 
partners are playing a bigger and bigger role and the coalition 
is holding steady. But we are still facing a lot of challenges 
and I would like to touch on some of those today.
    First of all, I am concerned about Iran's growing foothold 
in Iraq. The Iran-guided operation in Tikrit has faltered, but 
Shia militants, including some fighters trained by Iran's Quds 
Force are playing a more influential role in Iraq. What are 
their intentions? And how do our own plans take these elements 
into account?
    Secondly, I am struggling to see the path forward in Syria. 
I think you know that I view our efforts to aid the opposition 
is too little, too late, and far too slow. Two and three years 
ago, I was yelling that we should be aiding and abetting and 
providing weapons to the Free Syria Army. What has happened now 
3 years later is these forces are barely hanging on. They have 
been focused in fighting the Assad regime and that would be 
hard enough, especially with inadequate weapons and training. 
But they also have to face off against ISIS and other battle-
hardened groups like the Nusra front. They need more training 
and equipment as quickly as we can get it to them.
    And lastly, what more can we do, what more can we do to 
support the Syrian people? More than 200,000 Syrians have 
already perished in this war. Nearly 10 million have been 
driven from their homes. This crisis has spilled over borders 
into Turkey, Iraq, Jordan, and Lebanon. This is a humanitarian 
catastrophe. Assad has blood on his hands and the Syrian people 
desperately need relief.
    So gentlemen, I look forward to covering these issues with 
you. I thank you again for your courageous service and I say 
again that it is past time for Congress to give you the support 
you need for this vital mission.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. This morning, we are 
pleased to be joined by senior representatives from the 
Department of State and Defense. General John Allen is the 
Special Presidential Envoy for the Global Coalition to Counter 
ISIL. He was appointed on September 16, 2014 by President 
Obama. General Allen is a retired U.S. Marine four star 
general, former commander of coalition and U.S. forces in 
Afghanistan from 2011 to 2013. During his combat tour in Iraq, 
he played a critical role in the awakening movement in Al Anbar 
Province.
    Brigadier General Michael Fantini is the Middle East 
Principal Director for the Office of the Assistant Secretary of 
Defense for International Security Affairs. Previously, he 
served as commander of Kandahar Air Field.
    Brigadier General Olson is with us. He is the Deputy 
Director for Middle East Joint Staff's Strategic Plans and 
Policy at the Department of Defense and previously he served as 
the deputy commander for Marine Forces Central Command. 
Brigadier General Olson, as I understand, you will not be 
giving oral testimony, but will be available to answer any 
members' questions. So we thank you for that, sir.
    Without objection, the witnesses' full, prepared statements 
will be made part of the record and members will have 5 
calendar days to submit any statements or questions of you or 
any extraneous materials. So we would ask that you would 
summarize your remarks and we will begin with General Allen.

    STATEMENT OF GENERAL JOHN ALLEN, USMC, RETIRED, SPECIAL 
 PRESIDENTIAL ENVOY FOR THE GLOBAL COALITION TO COUNTER ISIL, 
                    U.S. DEPARTMENT OF STATE

    General Allen. Esteemed members of the committee, thank you 
for providing me this opportunity to update you on the progress 
of the Global Coalition to Counter ISIL. More broadly, let me 
thank you sincerely, the members of this committee, for the 
tremendous support that that you have been giving our men and 
women in uniform and also our diplomats in the Foreign Service 
at far-flung posts and stations around the world who have 
served our country so well. We are deeply grateful for the 
support of this committee in that regard.
    I returned to Washington this past week after a 10-day 
visit to coalition capitals, where I met with partners in Rome 
and Ankara, Baghdad and Berlin, and finally in Brussels, where 
I briefed the members of the European Union and North Atlantic 
Council. My engagements in each of these stops reinforced my 
confidence in the coalition strategy to counter ISIL across the 
informational, physical, and financial spheres in which it 
operates. In the territory ISIL has lost, in the increasing 
financial strain on the organization, and in the diminished 
morale and increased desertions of its fighters, we are clearly 
degrading its capabilities. The allure of the so-called 
caliphate is under direct assault.
    To date, the coalition has conducted nearly 3,000 air 
strikes, I believe, in fact, went over that number last night, 
against ISIL territories; more than 1,600 in Iraq and nearly 
1,300 in Syria. We have taken out ISIL's fighters, many of its 
commanders, as well as the infrastructure, support to its 
terror infrastructure and facilities, including 20 training 
camps and over 200 oil and gas facilities. Since the coalition 
campaign began, ISIL has lost more than a quarter of the 
populated territories it held in Iraq.
    Because we lack the same kind of partners on the ground in 
Syria, the situation there is more challenging and complex. 
Still, we are working closely with regional partners to 
establish sites for training and equipping vetted, moderate 
Syrian opposition elements, in order to train approximately 
5,000 troops per year for the next 3 years.
    Syrian opposition groups to counter-ISIL continue to make 
strategic gains, expanding west and east from Kobani in 
retaking territory from ISIL. Coalition air strikes against 
ISIL in Syrian territories continue to degrade ISIL's sanctuary 
and limit its freedom of movement and military capabilities, as 
well as its capacity to resupply its efforts in Iraq.
    In Iraq, coalition air power has supported many Iraqi 
Security Force-led operations, and we are actively supporting 
training of Iraqi forces at four camps where nine Iraqi Army 
and three peshmerga brigades are being trained and equipped.
    The coalition is planning to build on this initial success, 
as well as prepare to meet a set of critical challenges in the 
months ahead. As ISIL is defeated in population centers and the 
military forces must move on to other objectives, there will be 
an immediate need for policing and public security efforts to 
set the conditions for essential service delivery.
    Populations that have fled the fighting will need shelter, 
assistance, and security until they can return home. In many 
cases, facilities have been destroyed or made insecure by 
improvised explosive devices. Providers will need to rapidly 
assess and respond with basic medical care, water, electricity, 
and other municipal services.
    As a successful stabilization effort begins with fair 
treatment during military operations, we applaud Iraqi leaders, 
including Grand Ayatollah Sayyid Ali al-Sistani, who publicly 
called for the protection of civilians and warned against acts 
of revenge and recrimination, or abuse. I might digress by 
saying it is worth reading his 20 point Code of Conduct that he 
issued last month with regard to the fighters in the field to 
liberate Iraq. It also means protecting the schools, hospitals, 
and water treatment facilities and securing antiquities and 
libraries. These measures begin the process of reunifying Iraq 
and building trust between liberated communities and the 
Government of Iraq.
    These critical stabilization efforts were at the center of 
my consultations last week in Baghdad. On the first day of 
meetings, we heard from the Iraqis about the need to plan for 
IDP returns, support IED removal, and provide services and 
expertise to assist with stabilization efforts. On the second 
day, a team of experts and coalition members met with their 
Iraqi counterparts and discussed Iraqi plans in greater detail. 
Throughout my meetings, I emphasized that Iraq's stabilization 
efforts will be the most important signal of the intentions of 
the Abadi government to fulfill its goal of rebuilding an Iraq 
for all Iraqis.
    We know from experience that these essential services are 
delivered more efficiently and effectively when they are 
sequenced and planned early on with military and civilian 
cooperation. We also know this: Stabilization operations 
require significant resources.
    We, as a coalition, will work together to assist and 
support Iraq as we are able to, but we do not have the 
resources to support all of Iraq's needs. Nor can money alone, 
whether from the Iraqi budget, from a trust fund, or from any 
number of partners, achieve full effectiveness without 
appropriate prioritization, planning, and sequencing.
    From Baghdad, we traveled to Berlin for the first meeting 
of the coalition's Stabilization Working Group. There, under 
the leadership of German and Emerati Governments, we convened 
more than a dozen coalition partners to identify specific areas 
where the coalition can support the Iraqis and establish a 
shared understanding of what we hope to achieve.
    The Working Group on Stabilization is just one of five 
coalition working groups coordinating coalition activities on 
specific lines of effort, including military support, counter-
finance, counter-messaging, and efforts to stem the flow of 
foreign fighters.
    Among coalition members, disrupting the flow of foreign 
fighters is an urgent concern and rightly so. Partners are 
working together to make it more difficult for their citizens 
to fight in Syria and Iraq through criminal justice reform, 
enhanced border control, and better intelligence sharing. 
Eighteen coalition partners have passed new Foreign Terrorist 
Fighter legislation over the last 6 months in order to stem the 
flow of fighters traveling to the region. More action is being 
contemplated. In fact, just this week, the Italian Government 
broke up a ring of smugglers of foreign fighters operating 
between Italy and Albania. The CT operation flowed from the use 
of information as a result of our coalition actions, and 
prosecution of those individuals will flow from legislation as 
a result of our Coalition actions.
    We must continue to improve how we harmonize border and 
customs processes, track potential and actual fighters en route 
to the battle, and share intelligence with partners. This kind 
of information sharing and creative thinking between partners 
is also vital in meeting a related and similarly urgent 
challenge: Constraining ISIL's access to financial support.
    Here, the coalition has made gains in synchronizing 
practices to block ISIL's access to banks, both in the region 
and globally. This includes stemming the flow of private 
donations and limiting ISIL's financial options by restricting 
its ability to generate oil revenues. We are now expanding 
these efforts to counter ISIL's access to local and informal 
financial networks.
    There is also broad consensus among partners in the 
Coalition's Counter Finance Working Group, which met for the 
first time in Rome last week, that we must closely examine any 
financial ties between core ISIL and terrorists linked to ISIL 
throughout the region.
    We are also beginning to better prepare ourselves to 
counter ISIL's violent messaging. Last month, the President 
announced the creation of a new Joint Online Operations Center 
with the UAE, where we will collaborate with regional partners 
to take on ISIL in the online information space. Efforts like 
these, to counter violent messaging, or to take on ISIL's 
recruitment capabilities and efforts to generate revenues, will 
endure long after we defeat ISIL, and will support long term 
U.S. counterterrorism goals.
    The United States and coalition partners are also 
supporting the United Nations' efforts to provide food aid and 
supply critical assistance to protect vulnerable women, 
children, and men and attempt to limit the suffering caused by 
ISIL's excessives and advances.
    Ultimately, the best way to protect vulnerable communities 
from ISIL's barbaric campaign of death and terror is to degrade 
and defeat the organization, militarily and ideologically, over 
the course of several years.
    The President has outlined a framework for the authorities 
he believes will be necessary to pursue this campaign with his 
formal request of the Congress for the authorization of the use 
of military force against ISIL. The AUMF request foresees using 
our unique capabilities in support of partners on the ground 
instead of through the long-term, large-scale deployment of 
U.S. ground forces. At the same time, the President has asked 
for the flexibility to fight an adaptable enemy, one that hopes 
to expand its reach and capabilities well beyond the borders of 
Iraq and Syria.
    As the President has said, the world needs to know we are 
united in the effort against ISIL. We are strongest as a nation 
when the administration and Congress work together on issues as 
serious as the use of military force. A new AUMF will prove 
that we stand united against this threat. A powerful message of 
support for our leadership with our allies and our coalition 
and a powerful message of defeat for ISIL.
    Taking the fight to ISIL also requires our close 
coordination with this committee and with the Congress, so that 
we can constantly evaluate our tactics and strategy, and that 
we are resourcing them appropriately.
    This hearing presents an opportunity to continue that very 
important dialogue with the Congress and coordination and 
consultation. I want to thank you, Mr. Chairman, and Ranking 
Member Engel for calling this hearing and permitting us to 
appear before you today. I look forward to taking your 
questions. Thank you very much.
    [The prepared statement of General Allen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith [presiding]. General Allen, thank you very much 
for your testimony. We now go to General Fantini

 STATEMENT OF BRIGADIER GENERAL MICHAEL FANTINI, USAF, MIDDLE 
 EAST PRINCIPAL DIRECTOR, OFFICE OF THE ASSISTANT SECRETARY OF 
DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    General Fantini. Mr. Chairman, Ranking Member Engel, 
members of the committee, thank you for having me here today. I 
will briefly describe our efforts that we are undertaking to 
counter ISIS in Iraq and Syria.
    As General Allen mentioned, the U.S. strategy to counter 
ISIL is a whole of government effort, supported by a broad 
international coalition. It includes multiple lines of effort 
across the government to counter this threat. The Department of 
Defense has lead responsibility for denying ISIL safe haven and 
building partnership capacity. This means conducting strikes 
against critical ISIL assets and supporting our partners on the 
ground, principally the Iraqi security forces and vetted Syrian 
opposition.
    Under the denying safe haven line, to deny ISIL safe haven, 
the coalition has conducted approximately 3,000 air strikes 
including more than 1,600 in Iraq since August 8, 2014. 
Additionally, over 1,200 strikes have occurred in Syria since 
December 23, 2014. We have taken out ISIL's fighters and 
commanders, more than 1,000 vehicles and tanks, over 200 oil 
and gas facilities, the infrastructure that funds this terror, 
as well as over 20 training camps, and more than 2,000 fighting 
positions, checkpoints, buildings, and barracks in both Iraq 
and Syria. As a result of this effort, the coalition has 
arrested ISIL's momentum, degraded its ability to mass and 
maneuver forces, and pressured or eliminated its leadership 
cells, and disrupted its command and control and supply lines. 
Overall, we have put ISIL on the defensive in Iraq.
    Under building partnership capacity, countering ISIL will 
not be possible without our local partners in the lead. To 
build partnership capacity in Iraq, the U.S. and coalition 
partners are supporting the Government of Iraq in its efforts 
to strengthen and reconstitute the Iraqi security forces by 
assisting with training, equipping, and advising the Iraqi 
security forces. This includes Kurdish fighters as well as 
Sunni tribes. Last summer, we stood up our ``advise and 
assist'' team to partner with local forces, and earlier this 
year, we began training Iraqi security and Kurdish forces at 
four sites across Iraq. I was able to visit Taji site recently 
and see firsthand the partnership that we have undertaken with 
the Iraqi forces. With the help of Congress, the Iraq Train and 
Equip Fund will enable us to train and equip the 12 brigades, 
to include three peshmerga brigades and 9 Iraqi brigades that 
was mentioned by General Allen as well as tribal and Sunni 
forces.
    Under the Syria train and equip, in addition to our efforts 
in Iraq, we are working with our coalition partners to build 
the capabilities of the moderate Syrian opposition, with 
training of the first class set to begin later next month in 
April. The goal is to train vetted Syrian recruits to defend 
the Syrian people; stabilize areas under opposition control; 
empower trainees to go on the offensive against ISIL; and 
promote the conditions for a negotiated settlement to the end 
of the conflict in Syria. Our partners in the region, including 
Saudi Arabia, Turkey, Qatar, and others have offered strong 
support to host and quickly stand up the program. U.S. forces 
in the region strengthen our partners' abilities to fight 
terrorism locally, but it will be Iraqi forces and Syrian 
fighters who will secure the gains against
    ISIL and inflict a lasting defeat.
    We look forward to working closely with you and we will 
continue to keep you and your colleagues informed. I look 
forward to your questions.
    [The prepared statement of General Fantini follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Thank you very much. Let me begin first of all, 
General Allen. From a purely military point of view, is the 
current military strategy to defeat ISIL deficient in any way?
    General Allen. Well, obviously, as the strategy unfolds, we 
know it is a long-term strategy. We will keep a very close eye 
on the progress. We will evaluate the resources against our 
expectations, again, as the strategy unfolds. As I watched the 
pieces of this come together with respect to the training, with 
respect to our enabling, with respect to our fire power and 
fire support provided to the Iraqi security forces, it seems to 
be unfolding in a manner which I think will be successful in 
Iraq. So we will keep a close eye on this and obviously, we 
will remain in close consultation with the Congress on the 
issue of resources.
    Mr. Smith. Let me ask you if I could, 2 days ago, I chaired 
a hearing on the increase of anti-Semitism in Europe and 
Ambassador Ronald Lauder, who was obviously a former Assistant 
Secretary of Defense for European and NATO policy testified. He 
is also the President of the World Jewish Congress. And he said 
there were ``thousands of young European Muslims that have left 
to fight with Islamic radicals in Iraq and Syria. And there is 
a real fear that they could return bringing the bloodshed with 
them. Some have already returned and we have seen the 
consequences.'' He referred to increased attacks on Jews 
throughout Europe especially where radical Muslim elements 
appear.
    To what extent is the administration examining the threat 
of returning Muslim extremists from the United States, a threat 
not just to Europe, but also to the United States? I noticed in 
your testimony, General, you talk about how the coalition 
members are trying to disrupt the flow of foreign fighters. You 
made a very cursory reference to some of the things. I know you 
can expand upon it. You mentioned 18 coalition partners have 
passed new foreign terrorist fighter legislation and so on. But 
this is a rear guard, the likes of which I think we have never 
seen before. Your thoughts on that and what can we do to 
mitigate the threat here in the U.S.?
    General Allen. You have put your finger on one of the 
greatest threats ultimately of ISIL as it exists today. It is a 
threat to Iraq. It is a threat in Syria. It is a threat in the 
region. But the return of foreign fighters is a direct threat 
to our homeland. Not just our homeland, but the homelands of 
our partners as we have seen tragically in such places as 
Ottawa and in Sydney and in Paris, Copenhagen, and Brussels and 
other places. So you are correct. This is a real issue for us. 
That is why there is, in fact, not just a working group, but an 
entire line of effort within the U.S. strategy as well to stem 
the flow of foreign fighters. And it begins by dealing with 
issues at home where we have encouraged, through best practices 
and consultation and the exchange of information, nations to 
work with at-risk populations at home, with clerics and 
teachers, with family members, with tribal leaders in our 
coalition partners' homes.
    Mr. Smith. Is there recognition, if I could interrupt, 
among our partners that Jews are at heightened risk?
    General Allen. Absolutely. This is, of course, an issue. 
The anti-Semitism that has arisen from this, this is an issue. 
The Jewish population is at risk. But more broadly than just 
the Jewish population, it is the security of these countries, 
so they are fixated on this, gentlemen.
    Mr. Smith. If I could, many of us have noted with a great 
deal of dismay the President's earlier dismissal of ISIS as a 
JV team or the equivalent of, and we have seen this happen on a 
number of fronts. I held a whole series of hearings on Boko 
Haram and tried desperately to get the administration to 
declare Boko Haram a Foreign Terrorist Organization. Went twice 
to Nigeria. Went to Jos where a fire bombing was occurring in 
churches. It was as clear as the nose on my face that Boko 
Haram had more of a regional terrorist mindset. And we seem to 
have not adequately assessed the scope, tenacity, and lethality 
of the threat. And as part of this coalition of the 60, is 
Nigeria a part of that?
    Again, to my dismay and shock and many others, all of a 
sudden we walked away, last December, from helping the Nigerian 
Government combat the very real threat that they are facing 
with training, with vetted, Leahy vetted individuals. It all 
can be done as a matter of political will, if you might speak 
to that.
    And finally, very quickly, because I am almost out of time, 
General Dempsey had pointed out that the security of the Iraqi 
forces and the Iranian support, I should say, is a positive 
thing in military terms. He then said that we have got to think 
what happens when the drums of ISIL stop beating and what about 
this idea that we need an inclusive government in Iraq? That 
seems to me to a very far-away dream, not likely to happen. But 
if you could speak to the Boko Haram especially.
    General Allen. Boko Haram is obviously a great concern. It 
has put its hand in the air to be what they call distant 
province of the caliphate and they have ultimately established 
a relationship. So I certainly commend your having held 
hearings on this issue because it is a very serious issue. 
Nigeria is not a member of the coalition, but I am traveling to 
nations around the world and trying to explain the nature of 
ISIL and the nature of this threat of local franchises 
expanding.
    Mr. Smith. If you could look to include them as well as 
other countries in Africa with al-Shabaab and all the other 
threats that are being faced, we would deeply appreciate it. I 
yield to Mr. Engel.
    Mr. Engel. Thank you, Mr. Smith. I want to talk a little 
bit at the beginning about Iran. We are negotiating a deal with 
them. They continue to be a bad actor all over the Middle East 
and Yemen.
    It appears that the Iraqi security force is with the help 
of outside militias including Shia militias. We are making 
gains in Tikrit. What has been Iran's role in this operation 
and what is the United States' current role in this operation?
    General Allen. I don't think we have a full and complete 
picture on Iran's role. There seems to have been some 
organizational support to the Shia elements in the Popular 
Mobilization Force, potentially some direct fire support as 
well. How much command and control they were exerting as 
opposed to how much the Shia militia elements, the PMF, were 
exerting, I think remains ultimately to be determined.
    The U.S. role with regard to Tikrit has to be considered in 
the larger U.S. role across all of Iraq. But your question is 
an important one. As we watch the operation unfold in Tikrit, 
we continued our close relationship with the Combined Joint 
Operations Center. Our conversation with the Iraqi military 
leaders and political leaders continued. As the operation 
unfolded, Prime Minister Abadi and members of the Iraqi 
security forces requested U.S. and coalition support for the 
final phase of the operation ultimately to liberate the city of 
Tikrit. I don't want to get into a lot of the operational 
details, to the benefit of the enemy, who is listening to what 
we are saying, it began by the provision of information and key 
intelligence. But as I think Mr. Engel, you saw last night, a 
large number of well-targeted and precise air strikes went in 
and are beginning to support the Iraqi security force 
operations that are unfolding right now. That is, I think, 
where we would leave the level of operational detail.
    The United States is deeply involved in this operation now. 
And we are deeply involved because it is consistent with our 
relationship with Iraq, overall inside Iraq, but it is also 
specifically as a result of the request of the Iraqi Government 
and the Iraqi security forces to assist them in Tikrit.
    Mr. Engel. Well, is it in the United States' interest to 
save what I would call a failing Iranian strategy? I worry 
about Iran's role in Iraqi military operations because what 
does that portend for the political future of Iraq?
    General Allen. I don't believe at all that we are in our 
efforts at this moment saving or attempting to salvage a failed 
Iranian strategy. The intent, of course, is to support the 
Abadi government and to support the Iraqi security forces and 
the liberation of a not insignificant urban center and 
population center with the idea ultimately of driving Daesh out 
of the province of Salah ad Din.
    I recently met with senior leaders from that province and 
last week across Iraq met with senior Iraqi leaders, and they 
are very keen on our role, our role across Iraq, our role in 
the restoration of Iraq's territorial integrity and 
sovereignty. They are also very keen on our role now to support 
the Iraqi security forces in the final assault on Tikrit and 
the liberation of that population center and that aspect of 
Salah ad Din province.
    Mr. Engel. Let me turn to the AUMF because I think that is 
very important. The administration sent an AUMF. I was one of 
the few people who thought it was a good AUMF. I didn't look at 
it as a finished product. I looked at it as a jumping off point 
and I thought it provided some very important things.
    Now some in Congress have called for a broad AUMF that 
would allow for U.S. ground troops. Let me ask you about that. 
How would the introduction of U.S. ground troops be perceived 
in the countries in the Middle East and by our other coalition 
partners? Would a large deployment help or hinder our ability 
to achieve our goal of degrading and defeating ISIS?
    General Allen. That is an important question. As I try to 
respond to questions like that, I always try to start by saying 
the operational environment will clearly dictate the 
recommended or the decision making with respect to what the 
force will look like. If it is a major emergency, one that 
requires some significant number of troops, then that 
operational environment, I think will be one that is clearly 
discussed with the Capitol Hill and our congressional partners, 
obviously to ensure that we are all of one mind on this issue.
    Absent a specific emergency or absent an operational 
environment that would seem to require a large infusion of 
American troops, I think we have learned now over many years in 
the region that the presence of foreign troops from outside 
that region often ultimately creates a reaction within that 
region that is focused on those foreign troops, that may have, 
in fact, a destabilizing effect.
    We also are actually quite good at training indigenous 
forces and employing very precise special operations forces, 
either in support of indigenous forces or if necessary, in 
terms of direct action. So there are many options for the 
Commander in Chief, whoever that will be. There are many 
options that can be discussed and consulted with the Congress. 
But I think we now know after many years of experience in the 
region, that the presence of large numbers of ground forces can 
sometimes have the reverse effect of our intention, which is to 
stabilize. It can sometimes destabilize the social fabric. So 
we need to be very conscious of that. That is why I think the 
AUMF is important in that it gives us the ability to empower 
and enable and support indigenous, national forces, to achieve 
the goals which otherwise foreign ground forces might have to 
undertake. And it is a very important question.
    Mr. Engel. Thank you. Thank you very much.
    General Allen. Yes, Mr. Engel.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much and I would like to 
thank our witnesses. Thank you all very much for being with us 
today.
    General Allen, your last point about large deployments 
sometimes actually destabilize rather than stabilize the 
situation was very well taken. And I hope that my colleagues 
understand the significance of that point. And to the degree 
that you have outlined a strategy that does not require a large 
deployment of American troops on the ground is something that I 
think we should all take very seriously, take a look and see, 
make sure--see how it works. Because this is a strategy that 
does work in the long run.
    Let me ask you about letting the--mobilizing the local 
forces which is what you are outlining for us today. You were 
involved with the Anbar province and the efforts there.
    General Allen. Deeply involved, sir.
    Mr. Rohrabacher. So are the Sunni tribal forces that 
enabled you to succeed there, are they currently involved in 
the struggle against ISIL?
    General Allen. Of course, Anbar remains, as you know, sir, 
a very contested area at this particular moment.
    Mr. Rohrabacher. That is correct.
    General Allen. And I have met with many of the sheikhs of 
Al Anbar. Some of them have their tribal sons in the fight 
right now. Without exception, however, the sheikhs that I have 
met from Al Anbar have said that when the opportunity presents 
itself, they will, in fact, join the Iraqi Government to oppose 
ISIL.
    Mr. Rohrabacher. General, weren't these forces that you 
were talking about the most effective forces that we had when 
we actually had a large deployment there? Weren't they actually 
the best forces? And what you are telling me now is those 
forces are not at play. Isn't that correct?
    General Allen. Well, I like to think that the Marines were 
the best forces that we had, but I take your point.
    Mr. Rohrabacher. I second that.
    General Allen. The environment was really dramatically 
different at the time. It was a contested area where once the 
tribes were properly supported by us, they were able to turn on 
the enemy.
    Mr. Rohrabacher. Let me, General, pardon me, my time is 
limited here for questions.
    General Allen. Of course.
    Mr. Rohrabacher. However, let me just note for the record 
that looking from a distance, it seems to me the reason why 
these tribal forces that were so important to your success with 
an earlier strategy are not at play now is because the 
administration is insisting on a strategy that is based on 
keeping Iraq together rather than working and deploying the 
forces within that region into the fight against ISIL.
    General Allen. If I may comment?
    Mr. Rohrabacher. Yes, sir.
    General Allen. I have been to Al Asad Airbase just recently 
where I saw U.S. and coalition special operators training the 
tribal forces. It is the full intent of the Iraqi Government to 
leverage and they now have about 7,500 or so tribal fighters on 
the payroll to leverage the tribal fighters ultimately to do 
much of the same thing that we were successful in doing in '07. 
It is an intent of the Iraqi Government.
    Mr. Rohrabacher. I understand it is their intent, but the 
fact is that these tribal leaders don't trust the intent of the 
Iraqi Government and because of this--and by the way, I 
wouldn't either, if I was in their spot.
    What about the Kurds? You mentioned that there are Kurdish 
fighters that you were very high on, level on. Then you 
mentioned, of course, the Sunni tribal leaders that we are 
talking about. Where are the Shi'ites? Isn't this really the 
problem is that when we come down to it, the Shi'ites are not 
doing their part in this?
    General Allen. That is a really important question, and it 
is a bit complex. I am going to take a stab at it, recognizing 
the time.
    Mr. Rohrabacher. Yes, sir.
    General Allen. Last year, when Daesh entered Iraq, ISIL 
entered Iraq, and we began to see the route and ultimately what 
looked like the potential loss of Baghdad and points south, the 
Grand Ayatollah Sistanti called for the rallying of all Iraqis 
to the flag. Not Shia, but all Iraqis to the flag, ultimately 
to help to defend the country. At the time, for obvious 
reasons, many of those individuals who were able to get to the 
flag frankly were the Shia elements. And they were organized in 
something called the Popular Mobilization Committee of which we 
see in the field today, Popular Mobilization Forces.
    They are not Asa'ib Ahl al-Haq. They are not Kata'ib 
Hezbollah with close ties to Iran. I think we need to be very 
nuanced in how we look at them because these are organizations 
that were filled last year with young men that came from the 
tribes in the south. They were teachers one day, and they were 
fighters the next day. They were bakers one day. They were 
infantrymen the next day. They came to defend their country. 
The fact that they were organized in Shia organizations and 
there are about 80,000 of them or so, the fact that they were 
organized in Shia organizations has been ultimately to 
stabilize the situation and then participate conceivably in the 
counter offensive.
    It is not an intention, sir, that these groups remain 
permanently established and it is the intention, ultimately, of 
the Iraqi Government that elements would be subsumed under the 
national guard concept or they would be disbanded and go home. 
They have already ceased paying about 20,000 of them to go 
home. So the Shia are, in fact, involved here as an irregular 
force in a military organization that has played a role.
    Mr. Rohrabacher. Has played a role, but again, underscoring 
the basic point that we just went through, these are not the 
ultimate fighters that we have to rely on, are really the Kurds 
and the Sunni tribal people. I believe in the strategy that you 
have set out. I believe it will work, but only if we are not 
hampered by the idea that we are going to keep Iraq which was 
an artificial entity created by the British a long time ago, 
make that our number one goal rather than defeating ISIL which 
is what supposedly our goal is.
    Thank you, General, very much and I thank all of you very 
much.
    Mr. Smith. The Chair recognizes Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. I wanted to continue 
this line of questions about the Shia and Iran and Sistani's 
Popular Mobilization Forces. And I want to actually start with 
the news about our strikes in Tikrit. The coverage in The New 
York Times today included a paragraph that said, ``if the 
Americans did not engage, they feared becoming marginalized by 
Tehran in a country where they had spilled much blood in the 
last decade, the official said speaking on the condition of 
anonymity.''
    If you could speak to the strikes in Tikrit, the air 
support that the United States is providing. Is it different 
than the support we have provided in the past? And is it being 
offered in part because there were concerns about being 
marginalized by the Iranians and in answering that question 
that gets to the broader point of the again, same article, the 
preponderance of the 30,000 fighters on the Iraqi side are the 
members of the militias fighting alongside the Iraqi soldiers 
and policemen. Of those 30,000, how do we, General Allen, 
following your last response, how do we view it in a nuanced 
way to distinguish between the Iranian-backed militias and 
Sistani's Popular Mobilization Forces?
    General Fantini. Congressman, I think the answer to your 
question is no. We work by, with, and through the Iraqi 
Government, and so through the Iraqi Government and the Iraqi 
security forces. The Iraqis came back and asked for support and 
we adjudicated that decision to the highest levels and decided 
to engage there. It is within the Iraqi interest and the 
coalition's interest to be successful in Tikrit because we 
don't want to have another success for Daesh or ISIL.
    And we anticipate that the support that we are providing 
the Iraqi security forces with the minister of defense, with 
the Ministry of Defense in charge of the command and control of 
that operation that we are in a position that we can provide 
that support to be successful.
    General Allen. With regard to the command and control, 
there is a difference between the role of the traditional Shia 
elements that are aligned directly with Iran and supported 
directly by Iran, and those elements of the PMF that have 
provided a larger force posture and a larger force generation 
capability. They are not--they don't intend to be or are not 
intended to be a permanent part of the Iraqi security force 
entity. They are viewed as a temporary organization that has 
played the role ultimately of blunting and halting the forward 
progress of Daesh. As we continue to build out the capabilities 
of the Iraqi security forces across the board, we can provide 
you, I think, significant detail about the forces that are 
engaged right now in Tikrit. It is actually quite encouraging.
    To give you a sense of when the PMF elements are going to 
be in play and when they won't be in play and as we continue to 
force generate the regular forces, they will play an increasing 
role ultimately in the counter offensive, ultimately to 
liberate the populations.
    Mr. Deutch. General Allen, are you confident that the Iraqi 
people view this action in Tikrit as one taking place against 
ISIS by the United States through air strikes and Iraqi 
security forces, or is it viewed as one that is a combination 
of U.S. air strikes and Iranian Shia-backed militias?
    General Allen. That is a good question. During my time on 
the ground just last week there, I made an effort to meet with 
the provincial leadership in Salah ad Din Province, in which 
Tikrit is the largest population center.
    At the time, the leadership in Salah ad Din and even 
recently, have talked about focusing on the liberation of 
Tikrit and have applauded the role of American forces in 
supporting the central government and the Iraqi security forces 
and liberating Tikrit from Daesh. My sense is that on the 
ground in Salah ad Din their view is that the United States, as 
we have done in multiple other places in Iraq, is providing the 
kinds of information and support to command and control and 
ultimately fire power that will facilitate the Iraqi Government 
and Iraqi security forces in accomplishing the mission of 
defeating Daesh and liberating this population center.
    So my sense that at least the Sunni leadership, key Sunni 
leadership, the Speaker, the Vice President and others, but 
also the Sunni leadership of Salah ad Din have been clear that 
they support the role of the United States in this particular 
fight, sir.
    Mr. Deutch. Mr. Chairman, I just hope that translates then 
down to the Iraqi people as well. I yield back.
    Mr. Smith. Thank you, Mr. Deutch. Chair recognizes the 
gentleman from Alabama, Mo Brooks.
    Mr. Brooks. I pass.
    Mr. Smith. The Chair recognizes David Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you very much 
for being here, General. You said, General Allen, in response 
to a question, you said I think we will be successful and you 
said in Iraq sort of emphatically. And it caused me to wonder 
whether you had a different assessment with respect to the 
region or outside of Iraq.
    General Allen. The pieces as we have assembled them in 
Iraq, I foresee those pieces achieving the strategy that we 
have laid out for ourselves which is ultimately to facilitate 
the Iraqi Government's restoration of the territorial integrity 
of Iraq and the sovereignty of the country.
    With respect to Syria, obviously, that situation is going 
to take longer. The training and equipping program, with the 
great support of the Congress, is just beginning to receive 
trainees and begin the process formally of training elements of 
the new Syrian army. And as those elements are introduced into 
the battle space, as we continue the work of working closely 
with the Syrian moderate opposition. I just met the president 
of the Syrian Opposition Coalition last week. There is not the 
clear partner in Syria that there is Iraq. There is not the 
governmental entity in Syria that there is in Iraq. And so it 
is going to take more time, obviously, and we are going to have 
to evaluate that strategy as time goes on.
    Mr. Cicilline. General, according to a recent human rights 
report, a Shia militia destroyed a Sunni village they had 
retaken from ISIS which was methodical and driven by revenge, 
according to the record. It indicated that dozens of other 
villages were similarly targeted. And considering the 
increasing efforts to combat ISIS by Iranian backed Shia 
militia sort of building on Congressman Deutch's question, how 
can we monitor Iranian retaliatory actions and will the Shia 
militias' punitive actions cause Iraq's disenfranchised Sunnis 
to view ISIS as really their only protectors and what are we 
doing to mitigate that and also what are the implications for 
fostering reconciliation between Shia, Sunni, and Kurdish 
communities in Iraq because of Iran's involvement?
    General Allen. It is an extraordinarily important question, 
both yours and Congressman Deutch's. There have been excesses. 
They have been horrible. We saw very quickly that the Iraqi 
Government condemned those excesses, and the Iraqi Government 
has initiated investigations into those excesses, ultimately to 
hold those who perpetrated them to be accountable.
    That is an important first point. Those excesses have been 
condemned by the Iraqi Government. Those excesses have actually 
been condemned by the Grand Ayatollah Sistani and it was part 
of--because of that, it was part of the reason for his issuance 
of the 20 Point Code of Ethics, Code of Conduct which would be 
recognizable to all of us in uniform as something that would be 
admirable to be followed by anyone who is involved in combat 
operations. That is what I would say is the first part.
    The tribes, the Sunni tribes that I still remain in close 
contact with, I just had a conversation with one just this 
morning, a sheikh, have made it clear that they are willing to 
give this government in Iraq a chance. Prime Minister Abadi has 
reached out to the sheikhs. He has reached out to the tribes. 
Unlike his counterpart who, in fact, victimized the Sunni 
tribes and victimized the Sons of Iraq, he has also established 
in an unprecedented way, relations with the Sunni governments 
in the region. He has been to visit the King in Jordan. He has 
developed a close relationship with the Turks. He is going to 
be invited ultimately to visit the Kingdom of Saudi Arabia very 
shortly. He and his government have had close relations.
    There is a regional relationship with the Sunni 
governments. There is an outreach through his own government, 
through his national security advisor and through his own 
personal actions, to the Sunni tribes in an effort not just to 
recruit them into the fight against Daesh, but also to 
establish the mechanisms and the environment in which 
reconciliation can occur.
    I speak frequently with the sheikhs of these tribes and 
there isn't one of them who sees ISIL as, in some form or 
another, an alternative to the central government in Baghdad. 
There just isn't any. That may have been an issue last year. It 
may have been an issue in and around the invasion by Daesh in 
June 2014. But among the tribes with whom I have long relations 
and the sheikhs with whom I maintain contact, there isn't a one 
of them that sees the presence of Daesh in Iraq as preferable 
to the central government. In fact, they have told me that they 
believe that Prime Minister Abadi and this government in Iraq 
is something that they can give a chance to.
    Mr. Cicilline. Thank you, General. I yield back, Mr. 
Chairman.
    Mr. Smith. The Chair recognizes the gentleman from Texas, 
Randy Weber.
    Mr. Weber. Thank you, Mr. Chairman. General Allen, how many 
of those tribes and sheikhs are there?
    General Allen. I will take the question, sir. There are 
many. In Anbar, I think we tracked in '08 there were as many as 
60 tribes and subtribes. There are multiple tribal 
confederations, the Shammar Confederation, the Dulaimi 
Confederation, the Zobai. There are multiple tribal 
confederations.
    Mr. Weber. How many of them do you stay in contact with? 
You said you have talked to a number of them?
    General Allen. I have talked to 10 or 12.
    Mr. Weber. 10 or 12, okay.
    General Allen. And they have significant populations.
    Mr. Weber. Okay, and earlier you said that Grand Ayatollah 
Sistanti had a Code of Conduct, I believe that had 20 items on 
it?
    General Allen. Twenty points, yes, sir.
    Mr. Weber. Twenty points. Where do you----
    General Allen. I will leave one with the committee.
    Mr. Weber. Perfect. Do you view--what do you think the 
chances are that when this is all said and done, however long 
that takes that Iran winds up with the spoils of the country of 
Iraq and that actually, they will be in charge?
    General Allen. I don't think that that is going to be the 
case.
    Mr. Weber. You do not?
    General Allen. I do not think that is going to be the case. 
In the end, Iraq is an Arab country. And while a large element 
of the Iraqi population shares a confession within the faith of 
Islam with the large population in Iran, they are a different 
people.
    Mr. Weber. What percentage of the fighters would you 
guesstimate is Iranian Guard or Iranian and then let us go to 
Shia and Sunni and even the Kurds? Can you divide that up for 
us?
    General Allen. No, I can't. We will take the question. The 
preponderance, the majority of Shia militias now in the battle 
space are of the Popular Mobilization Force I described before. 
Some smaller number of them are the direct Iranian-allied 
Asa'ib Ahl al-Haq, Kata'ib Hezbollah, and that type of group. 
But we can provide you, I think, some pretty good fidelity on 
that. And then of course, our focus is the Iraqi security 
forces, their counterterrorism service, and the training of the 
tribes as well.
    Mr. Weber. Would you guesstimate that that is the total 
force of 100,000 or 200,000 or what would you guess the 
fighting number?
    General Allen. I will ask my military colleagues to get you 
the number.
    Mr. Weber. Okay. General Olson?
    General Olson. Congressman, there is about 90,000 fighters 
in the ministry of peshmerga. There have been as many as 80,000 
mobilized in Grand Ayatollah Sistani's call to arms for Shia 
militia, some of whom have been enrolled as Popular 
Mobilization Forces, some of whom have not. And for Iraqis 
under arms, there is a significant Shia population in the Iraqi 
armed forces, both the counterterrorism services, and the 
regular armed forces. About 80 percent of the Iraqis in uniform 
are Shia.
    Mr. Weber. And what number would you put on that?
    General Olson. I will have to get back to you with an exact 
number of the Iraqis under arms.
    Mr. Weber. Would you guess 10,000 to 80,000?
    General Olson. It is upward to that, sir.
    Mr. Weber. It is upward to that.
    General Olson. I can get a number for you.
    Mr. Weber. And what is our current guesstimate on ISIL 
forces in Iraq?
    General Olson. The numbers vary, sir. I would defer to 
Intelligence Committee colleagues about their best guess 
estimate of the current figures. I have seen figures as high as 
a couple dozen thousand. I have seen figures much lower than 
that. I think that is a better question that we can back to you 
with a detailed classified answer.
    Mr. Weber. Okay. And are you guys watching the budget 
negotiations up here? It is okay to admit that you are watching 
them.
    General Olson. My portfolio on the Joint Staff does not 
include being mindful of budgetary restrictions.
    Mr. Weber. Do you feel like you have enough to--well, first 
of all, how many--we don't call them boots on the ground. I 
think we call them advisors. But how many advisors do we have 
in Iraq?
    General Olson. The total force in Iraq is a little bit 
upwards of 3,000 uniformed Americans. They are divided between 
the efforts of building partner capacity, advising and 
assisting the Iraqi counterparts and then providing the basic 
security and life support that come with that.
    Mr. Weber. Are you confident that we have enough money in 
the budget to prosecute this war now and the next 2 to 3 years?
    General Olson. Currently, the operations are being funded 
through a level that is appropriate for our current level of 
effort.
    Mr. Weber. Okay, and if you could come to us with an AUMF, 
would you want it for 3 years or longer?
    General Olson. Chairman Dempsey has testified that the 
current AUMF is sufficient to support the strategy as designed.
    Mr. Weber. Thank you. I yield back.
    Mr. Smith. Thank you, Mr. Weber. The Chair recognizes the 
gentlelady from Florida, Lois Frankel.
    Ms. Frankel. Thank you, Mr. Chair, and thank you, 
gentlemen, for your service to our country.
    I have a couple of questions. First relates to the 
underlying conditions that led to the rise of ISIL. Would you 
agree that ISIL is not the cause of the turmoil in the region, 
but a symptom of much deeper problems. I would like to get your 
opinion. Is it unstable governments, poverty, desperation, 
radical religion? I would like to get your take on that.
    And secondly, I think the American public somehow thinks 
that you can simply get rid of ISIL by bombs or dropping drones 
and could you just explain the difficulty of their 
assimilation, let us say, into population and so for the 
terrain?
    General Allen. One of the, I think, real benefits of the 
counter ISIL Coalition which numbers at 62 entitles now, 
countries and entities, is the recognition that Daesh is, in 
fact, not the disease, it is the symptom of something bigger. 
And that broad recognition includes the base societal factors 
that have given rise to the attractiveness of an organization 
like this. And they are societal issues. There are political 
issues, inclusiveness, participation, social issues associated 
with economic opportunity, the ability ultimately to have the 
opportunity to put food on the table for families. And often 
the result of the absence of all of those or some of those in 
these countries and among these populations have created the 
conditions of despair and desperation which has made those 
populations susceptible to radicalization and then recruitment.
    Ms. Frankel. Excuse me, General, I assume there are efforts 
being done to try to respond to those conditions.
    General Allen. I think so. We just had this week, in fact, 
we ate dinner together the other night with the President of 
Afghanistan, Ashraf Ghani, where I personally saw because we 
are beginning to see the emergence of the potential for ISIL 
and we have the presence of the Taliban which is its own 
entity, where we have seen, I believe, some real progress with 
regard to the underlying issues that gave rise to some of these 
organizations: The rights of women and the opportunity of women 
to have a far more prominent role in society, the dedication to 
institutions of democracy, and to build capacity within those 
institutions, all of which, of course, has stemmed from the 
security efforts that we have put into the building of that 
force which is holding now. So that country is a good example 
as are other countries in the region. It is a good example of 
how they are attempting to address and embrace an absence of 
capacity, whether it is social or economic or human rights or 
democratic institutions or governmental institutions. An 
absence of capacity, as I said before, the combination of which 
has given rise to despair and radicalism and extremism and then 
violence.
    Ms. Frankel. Which sounds to me why Syria is so difficult 
because there really is no government there to work with at 
all.
    General Allen. Syria is very challenging, ma'am.
    Ms. Frankel. And could someone just respond to the question 
about how ISIL has integrated into the society? They are not 
standing in a corner waiting to be bombed, so if you could just 
maybe explain the difficulty of rooting them out.
    General Fantini. Yes, ma'am. ISIL is an ideological entity 
that through the use of terror is able to co-op to the society. 
And that is why when we look at the number of strikes that we 
have done to halt ISIL and put them on the defensive, it is 
very precise and we have done it with forethought with the 
understanding that this conflict is not a major force on 
another major force, more traditional if you will.
    From a counterterrorism perspective, we are in a 
counterterror fight and when we engage a target, we want to 
ensure we engage the enemy and don't create more enemies by 
hitting the wrong target if you will. And so that is why it 
will take time and the fact that we have conducted over 3,000 
strikes in the 6 months has positioned us to continue to push 
for success as we move forward, but it is a very challenging 
environment and a distributed enemy. Our coalition tactics 
engender the support of the society and the government and that 
is how we will continue to pursue. Yes, ma'am.
    Chairman Royce. [presiding.] We will go now to Mr. Salmon.
    Mr. Salmon. Thank you. I just ask for any of your thoughts 
on Clapper not designating Hamas and Iran now has threats to 
our national security. I was kind of shocked that in his most 
recent report that they are not included in the threats to our 
national security and I am curious about your thoughts.
    Also, when it comes to dealing with the fight against ISIL, 
we are also seeing Iran and its allies continue to invade other 
countries and become more of a threat to our national security. 
So this muddled mess, one day the Shi'ites are our allies and 
the next the Sunnis are our allies. Depending on what country, 
if you are dealing in Yemen, the Iran-backed forces are our 
enemy and they are a problem, but yet when we are fighting 
against ISIS, they are our allies. It is a very confusing mess. 
And for us in Congress to end up developing an AUMF, it becomes 
very, very complicated and I am just curious of your thoughts 
on that.
    General Allen. Confusing mess is actually a good term for 
the environment that we find today in the region. It is a very 
difficult environment. It is one that is characterized by long 
term social difficulties as we explained to Congresswoman 
Frankel. It is one where there have been long-term insurgencies 
and destructions of the social fabric that have been leveraged 
by political entities within the region. Iran has been 
prominent in that. It is a state sponsor of terror. It has been 
a disruptive influence for a very long time and I think that we 
haven't in any respect changed our view that Iran is one of the 
central destabilizing influences throughout the entire region. 
Not just in the context of its destabilizing of our partners 
and allies in the region, but certainly as a direct threat to 
our ally Israel as well.
    So Iran remains a state sponsor of terror. We still 
perceive it to be. I don't think that there has been any back 
peddling by the administration in that regard.
    Mr. Salmon. Why did Clapper then leave them off of the 
list?
    General Allen. I don't know. I don't know that he did, sir. 
We will do some research on his comments to ensure that we 
provide the clarity that you desire on this issue. I am not 
going to speculate here. I didn't see his comments. So you 
deserve an answer and we will get you one. But Hamas and 
Hezbollah remain FTOs, foreign terrorist organizations, and 
have been duly designated by the U.S. Government and remain on 
that list, sir. Nothing has changed in that regard.
    Mr. Salmon. Okay. The other question I would have is why 
has the administration not designated additional Shia militias 
or their leaders under Executive Order 13438 blocking property 
or persons who threaten stabilization efforts in Iraq since the 
onset of operations against ISIS?
    General Allen. I can't answer that. We will get an answer 
for you, sir.
    Mr. Salmon. Okay, that would be really helpful. I will 
yield back the balance of my time.
    General Allen. Thank you for the questions.
    Mr. Salmon. Thank you.
    Chairman Royce. I thank the congressman for yielding and we 
will go to the gentleman from Florida, Mr. Alan Grayson.
    Mr. Grayson. Thank you, Mr. Chairman. General Olson, trying 
to piece together information from public sources, it appears 
to me that we are spending roughly $1 million for every ISIS 
fighting that U.S. forces kill. Does that sound right to you?
    General Olson. The figure that we understand for the 
operational costs per day is about $8.5 million.
    Mr. Grayson. But am I right to think that we are spending 
approximately $1 million for every single ISIS fighting that 
U.S. forces kill?
    General Olson. I haven't done the math, sir.
    Mr. Grayson. All right, let us assume for the sake of the 
argument that that is correct. Does it make sense, does it make 
sense for us to be deploying the most powerful military force 
that the world has ever seen and spend $1 million to kill some 
man standing in the desert 6,000 miles from the closest 
American shore holding a 40-year-old weapon? Does that make 
sense?
    General Olson. The military strategy as designed provides 
U.S. support to a coalition that will degrade, dismantle, and 
ultimately defeat ISIL.
    Mr. Grayson. What about you, General Fantini? Can you think 
of ways that we can spend less than $1 million and still keep 
America safe for every gentleman standing in the desert 6,000 
miles away when we kill?
    General Fantini. Congressman, I can't address the math that 
you are presenting. I don't know if that is accurate or not. 
From the perspective of continuing with the strategy of 
developing local forces, to enable those local forces with 
coalition support, to degrade and defeat ISIL, I would submit 
that that is a worthy expenditure of resources.
    Mr. Grayson. Well, let us talk about that. You, of course, 
are all very, very familiar with what General Powell said about 
what makes for a good, effective war and what doesn't. General 
Powell said that we need a vital national security interest 
that is pursued by a clear strategy. We need overwhelming force 
and we need an exit strategy.
    So let us start with you on that, General Allen. What is 
our exit strategy?
    General Allen. The exit strategy is an Iraq that ultimately 
is territorial secure, sovereign, an ISIL that has been denied 
safe haven, and ultimately has been disrupted to the point 
where it has no capacity to threaten at an existential level 
the Government of Iraq and the nation of the Iraqi people. And 
it ultimately ends up in a state that does not permit it to 
threaten the United States or our homeland.
    Mr. Grayson. General Allen, that doesn't sound like a 
strategy to me. That sounds like a wish list. You certainly 
understand the difference between a strategy and a wish list.
    General Allen. And I do and the strategy, in fact, has a 
whole series of lines of effort that converge on Daesh to 
prevent it from doing the very things that I just mentioned.
    Mr. Grayson. But what is our strategy?
    General Allen. Strategy is to pursue a series of lines of 
effort from defense of the homeland to the stabilization of the 
Iraqi Government to the countering of the Daesh message to the 
disruption of its finances to the impediment of the foreign 
fighters to the empowerment of our allies to the leadership of 
a coalition ultimately aimed to the defeat of Daesh. That is a 
strategy.
    Mr. Grayson. But none of those are exit strategies, right?
    General Allen. There is no exit strategy for this. This is 
about dealing with Daesh. This is about defeating Daesh. The 
success of the strategy is not about exit. The success of the 
strategy is about empowering our partners so that they can 
ultimately restore the territorial integrity and the 
sovereignty of a country and deny Daesh the ability ultimately 
to do that.
    If you are looking for an exit strategy with respect to our 
presence in Iraq, when we have successfully concluded that 
aspect of the strategy, we have said from the beginning that 
our forces will redeploy. The Coalition has said from the 
beginning that our forces will redeploy. So if that is the term 
that you are seeking in terms of an exit strategy, then I would 
say that is the mechanism by which we redeploy our forces from 
Iraq.
    But the strategy is oriented on an effect that we hope to 
achieve with respect to Daesh.
    Mr. Grayson. General Olson, you will agree that we are not 
using what Colin Powell would have considered to be 
overwhelming force, correct?
    General Allen. We are using an appropriate level of force--
--
    Mr. Grayson. Which isn't overwhelming force, right? Not as 
Colin Powell would see it, right?
    General Allen. I don't want to speak for General Powell. I 
believe that the resources that we are applying to the strategy 
to achieve our ends through matching ways and means are 
appropriate for the strategy as designed.
    Mr. Grayson. General Fantini, yes or no, are we using what 
you would consider to be overwhelming military force?
    General Fantini. Congressman, I would submit that American 
air power against an AK-47 could be construed as overwhelming. 
I agree with General Olson that the use of the resources and 
the force applied to support our coalition partners to enable 
these ground operations are appropriate for the strategy and 
for success in this fight that will take a clear eyed and long-
term commitment. And we have stated at least 3 years.
    Mr. Grayson. My time is up. Thank you all very much.
    Chairman Royce. Thank you, Mr. Grayson. There is just one 
vote on the floor, so we will keep this hearing moving. Some of 
the members have left to cast that ballot and they will be 
back. And those members waiting to ask questions, if some of 
you want to vote and then come back, we will work right 
through.
    Empowering our partners is sort of the theme, General 
Allen, that you have used successfully in the past with the 
Anbar awakening. One of the real questions here though is which 
partners end up stepping up to the plate and will they do more 
harm than good? And I am speaking right now of the militias, 
the Iranian led or encouraged militias here because that is my 
concern in all of this.
    Many of our partners in that theater are already frustrated 
about our Syria policy. We hear from these Ambassadors in the 
Gulf states and through the region. And I wonder how much 
longer the Sunni states will stick with the coalition once 
these Shia militias go on the rampage. And that is the part I 
am concerned about.
    In some areas, these Shia have burned and bulldozed 
thousands of homes in Sunni villages. You see the reports in 
the front pages of the papers about some of the atrocities 
committed. And this is our concern about the Iranian trained 
and equipped fighters stepping into Iraq. I will just give you 
what I recently heard about the breakdown. This is how General 
Dempsey described the Tikrit operation. A thousand Sunni tribal 
folks, a brigade of the Iraqi security forces, that would be 
about 3,000, well, that is what we want to see happening. But 
then approximately 20,000 of the Popular Mobilization Force 
which in this count seems that they are Shia militia. And so 
given that some of those militia are the same militia that in 
the past attacked U.S. forces during the height of the Iraq War 
and some are known to have targeted these Sunni Iraqi citizens 
during the same period.
    Given Iran's involvement in this, how do we reconcile their 
role, then and now? And to what extent are Iranian forces on 
the ground taking part directing these militias? I see some of 
it in the interviews and certainly coming from the region. The 
Iranians are trumpeting this.
    General Allen. Prime Minister Abadi has been pretty clear, 
very clear actually, that it is not his intention that there be 
developed in a parallel security structures in Iraq. To that 
extent, the Popular Mobilization Forces have generally been 
organized in a manner that ultimately they will either be 
disbanded or will be subsumed under the national guard 
organizations once the national guard legislation is passed and 
they become a reality.
    I think your question and your concern is very well placed. 
We are attempting to ensure that we understand what it is that 
the Iranians have done and what they have not done with respect 
to the militias in general and with regard to Tikrit in 
particular. And you are also correct that there are elements of 
these militias which are the ones that we have seen before that 
we saw during our period of time in Iraq in large numbers, 
Kata'ib Hezbollah, Asa'ib Ahl al-Haq and others that have the 
potential of creating a long-term security problem for the 
central government in Iraq.
    So we are watching this closely. We are working closely 
ultimately with the central government on the assimilation of 
those Popular Mobilization Forces, those Shia elements that 
came forward in the aftermath of the attack on Iraq last June 
to try to preserve the integrity of Iraq. And ultimately, it is 
the intention of Prime Minister Abadi that those forces either 
be disbanded or go home.
    The longer term issue, your question I think implies we are 
going to have to deal with Kata'ib Hezbollah and those elements 
that are directly supported by the Iranians over time. And I 
think that is a security issue that the Iraqis are going to 
have to address. And I think that their time will come as this 
campaign continues to unfold.
    Chairman Royce. Yes. I think some of this talk about Iran 
being a very successful regional power, long term, if it does 
this nuclear deal, the choice of words here by the 
administration, I think is concerning to others on the ground 
who have noticed the Iranians were bragging the other day about 
four Arab capitals now being under their control and talking 
about maybe taking a fifth, you know? And this kind of rhetoric 
coming commensurate--of course, I am bothered by 3 days ago the 
``Death to America'' quote from the Ayatollah. And in the 
middle of all of this, pushing the envelope and saying we 
control four Arab capitals now and we are on our way to 
controlling a fifth and we are talking about Saudi Arabia. And 
they are trying to support a low-level insurgency among the 
Shia there.
    I think the Sunni tribes will be central to this fight in 
terms of turning back ISIS. And they have been squeezed between 
the terror of ISIS on one hand and the brutality of the Shia 
militia on the other. And because of your experiences on the 
ground in Anbar during the awakening and the fact is that 
helped turn the tide, I just look at the resources and the 
capabilities that were deployed then versus what we are doing 
to work with them now. And we have got to do more, I think, to 
fully engage the Sunni tribes in this struggle against ISIS as 
an alternative to having Iran bringing in as they are doing, 
you know, today in Syria and in Lebanon and Yemen and frankly 
trying to do in Saudi Arabia and trying to do in Bahrain as we 
know to the extent that you can succeed at this, I think it is 
going to be essential.
    General Allen. I agree with that 100 percent, Chairman. The 
unfolding of the counter offensive in Iraq needs to liberate 
large numbers of the Sunni population, numbers that have really 
very few options with respect----
    Chairman Royce. My time has expired. I need to go to Mr. 
Meeks, but he has enough time to make that vote.
    Mr. Meeks. Thank you, Mr. Chairman, and Generals, I want to 
thank you. What I appreciate is I think is what I am hearing is 
some honesty in the sense that I hope we are playing, even if 
it is short term or having short-term pain for long-term gain. 
You know, when we were in Iraq we thought that after the shock 
and awe just a few days later that it was all over and we then 
were in Iraq another 10 years. And from what I am hearing from 
you, we know that it is going to be a long-term fight. This is 
complicated. And we are going to have at least, I think you are 
saying at least 3 years. And I hope that then means that a lot 
of these regional entanglements that we try to figure it out 
because unfortunately have to run out, but I am told that yes, 
some of our troops on the ground, if you have troops on the 
ground that is not going to help. It could exacerbate the 
situation. In larger numbers, right, in large numbers. We have 
our special forces in training and doing what we have to do in 
that regard and bringing them together. Because in my 
estimation it is going to take everybody in the region working 
together and not just the United States by ourselves. And it 
has got to take the cooperation of a number of individuals in 
the region.
    So with that in mind, my questions would be, I have two-
fold. One is with reference with Qatar and them and are they 
cooperating with us? There have been some differences in their 
approach to Syria which complicates things and whether or not 
they are able, have the ability or the desire to cut off the 
financing to the terrorists and what their authority is.
    And the second question then would be in reference to 
Turkey and whether or not they are cooperating with us in the 
region and how they add in because it is very important, I 
think, that we have those two countries intricately involved 
with us if we are going to really win this thing. So those are 
my two questions.
    General Allen. Mr. Meeks, you are 100 percent correct in 
your observations on both of those. They are both critical to 
the outcome. In the case of Qatar, the Emir has recently 
visited here. He has reinforced something that we have heard in 
the last couple of years which is that Qatar has taken measures 
to begin to stem the flow of donations that come from Qatar and 
obviously the enormous wealth that many of the individuals have 
there. Not the government, but individuals to stem the flow of 
that money ultimately to organizations like Daesh or other 
organizations. The Emir has been clear on that issue. We have 
seen, in fact, that that money has diminished, whether it still 
flows in any form or not, I can't answer today. But Qatar has 
been very clear that it does not intend to tolerate the funding 
of those kinds of organizations. That is a positive trend with 
regard to Qatar and it is also a very positive public statement 
by the Emir.
    It is also important to understand that Qatar has flown air 
operations with us as on the wing of U.S. Air Force aircraft in 
Syria. Qatar also hosts Al Udeid which is one of our largest 
air bases in the entire region. The forward headquarters with 
CENTCOM, the combined air operations center for the region, and 
the headquarters, forward headquarters of our Special 
Operations Command in the region. So Qatar is a very important 
partner, not just in dealing with Daesh, but also dealing and 
helping us to continue as a platform for preserving regional 
stability.
    With respect to Turkey, Turkey is an old friend of the 
United States and we are an ally through our relationship with 
NATO. I have been to Ankara now four times in the last 4 months 
where we have had a number of conversations with the Turkish 
leadership, one of which specifically late one evening with the 
Prime Minister resulted in the Turks, my direct conversation 
with the Turkish leadership resulted in the Turkish decision to 
permit the peshmerga to reinforce the defenders of Kobani by 
moving through Turkey to do that.
    Turkey has made a series of additional decisions ultimately 
to expand its support to our coalition efforts. We continue to 
have productive conversations with Turkey. We have more to 
cover, more ground to cover in terms of how Turkey might 
participate, but it is not just in the military context. Turkey 
is now co-leading the Coalition Working Group on stemming the 
flow of foreign fighters. It is in Turkey's interest to do that 
and they have embraced that as a responsibility within the 
coalition.
    So we will continue to work very closely with both of those 
countries and as your question implies, they are critical to 
the outcome.
    Mr. Meeks. Thank you, General.
    General Allen. Yes, sir. Thank you.
    Mr. Zeldin [presiding]. Thank you, Mr. Meeks. I now 
recognize myself for 5 minutes. I wanted to start off by 
thanking all of the generals who are here for your service to 
our country, dedicating your entire life to protecting our 
freedoms and liberties, being responsible for making critical 
decisions that not only impact the welfare of the men and women 
under your commands, but also their families back home. So 
thank you for a lifetime of service to our country.
    I was in Iraq in 2006 with the 82nd Airborne Division and 
toward the end of that year, General Petraeus was taking over 
part of this surge strategy, was taking over all of the surge 
strategy and I remember a counter insurgency model coming out 
at the time where a lot of his vision for what we need to do in 
Iraq was articulated really in written form. You can find on 
the internet.
    He would say things like ``Give flexibility to local 
commanders so they can adapt to changing circumstances.'' 
Trying to tackle the conflict of Iraqi military and law 
enforcement in many cases not even showing up to work. How do 
we embed forces to ensure that they are going to be there in 
the morning?
    My first question is and I apologize if it was answered 
while I was away, who is in charge on our side on the ground in 
Iraq?
    General Olson. United States Central Command is ultimately 
responsible for the campaign, in the campaign fund that has 
been written. There is a three star general who is the 
commander of the Joint Task Force, combined Joint Task Force 
for Operation Inherent Resolve. He is headquartered in the 
Central Command AOR.
    On the ground in Iraq is an American two star commander who 
commands the joint combined land forces effort there.
    Mr. Zeldin. General Austin is the three star?
    General Olson. General Austin is the four star Central 
Command.
    Mr. Zeldin. The four star, right. Okay, so who is the two 
star?
    General Olson. Major General Funk.
    Mr. Zeldin. Major General Funk. Now so I remember----
    General Allen. The 82nd is coming in behind by the Big Red 
One, by the way.
    Mr. Zeldin. Good decision. As far as Major General Funk 
goes, or the three star that is over him, whose vision? One of 
the things in my analysis and the analysis of others is who is 
in charge and are they being given the flexibility and 
resources they need to accomplish their mission?
    When the President sent the authorization for the use of 
military force, the Congress accompanied with that was a five 
paragraph letter from the White House to Congress. And in one 
of those paragraphs it is indicating an understanding that the 
use of special operations, the use of ground operations would 
be important. The White House was careful not to word it where, 
you know, specifically saying it was going to be U.S. special 
forces or U.S. ground operations. But one of the things in my 
analysis of whether or not we are actually going to be able to 
defeat ISIS is that we are driving the recommendations from the 
ground up.
    When you have a very talented two star or three star or 
four star with multiple combat tours, a lot of combat 
experience, they understand the enemy. They understand the 
government, the culture. Without their hands being tied behind 
their back, they are able to say exactly what we need to do to 
defeat ISIS. Is that two star, does he have the flexibility he 
needs? In his mind, if he wants to send an Army Ranger Unit or 
Marines or Navy Seals or Delta Force or Green Berets to do a 
night mission in Syria or some part of Iraq, when they come 
under the cover of darkness. They take out a high-value target 
or they get very important actionable intelligence, does that 
two star have the ability to execute that kind of a mission?
    General Olson. Being cautious about operational security, 
what I would say, Congressman, is that the chain of command has 
been empowered both by the chairman and by the Central Command 
commander to make the appropriate recommendations for what we 
need to do to carry out the strategy.
    Mr. Zeldin. So when Secretary Kerry was here, one of my 
colleagues, Mr. Grayson, was trying to interpret whether or not 
the authorization included offensive operations. The 
Secretary's initial response indicated that it did not 
authorize offensive operations. With my question, he had the 
opportunity to clarify it that it did not involve--he was not 
referring to kinetic air strikes. But the one thing that was 
left unanswered from that back and forth due to a lack of time, 
was whether or not the authorization for use of military force 
allows for the use of U.S. special operations forces to be able 
to conduct that kind of a mission. Does the authorization for 
use of military force the President gave to Congress, does that 
authorize that commander on the ground to execute that kind of 
a mission?
    General Olson. The President's transmittal letter included 
examples of things that are not enduring offensive ground 
combat operations such as rescue operations involving U.S. or 
coalition personnel. The use of special operations forces to 
take military action against ISIL and their leadership, i.e., 
counterterrorism, or the use of U.S. forces in situations where 
ground combat operations are not expected or intended such as 
intelligence collection and sharing, missions to enable kinetic 
strikes, or the provision of operational planning or other 
forms of advice and assistance to partner forces.
    Mr. Zeldin. So just so I understand, General, and my time 
is expiring, just so I understand, would that commander on the 
ground be authorized--if Congress was to pass this 
authorization for use of military force, will that commander be 
authorized to conduct that special operations mission to take 
out a high-value target?
    General Olson. Again, Congressman, within the bounds of 
OPSEC, the commander will be able to make the recommendation 
for the appropriate military operation to match the appropriate 
means to the appropriate outcome.
    Mr. Zeldin. Thank you, General. At this time I would like 
to recognize Mr. Sherman of California.
    Mr. Sherman. Thank you. We are talking about the AUMF. Keep 
in mind the President has total power to deploy our forces 
outside combat areas for training. The President has under the 
War Powers Act the right to engage in a series of ground 
operations lasting 60 or 90 days per operation without any act 
of Congress. And then finally, unless we repeal the 2001 AUMF, 
the President has total power to do just about everything he 
wants against not only al-Qaeda, but organizations once 
affiliated with al-Qaeda which the President has concluded 
includes ISIS.
    Our focus is on ISIS because they have forced us to focus 
on them through not only their territorial acquisitions. After 
all, the Houthi have had some territorial acquisitions, but 
because of their gruesome YouTubes. They are the only group in 
the Middle East that has, in effect, asked us to bomb them. We 
have obliged.
    Another area where we--well, I think the Shi'ite alliance 
is more dangerous than ISIS. They have killed far more 
Americans including the Marines in the 1980s in Beirut. They 
have conducted operations on every continent, including 
Hezbollah, conducting operations in Buenos Aires and of course, 
they are trying to develop a nuclear weapon.
    So the total destruction of ISIS is probably not available 
to us, but even if it was, we would have to ask who is going to 
fill that ideological, that territorial and that cyber space. 
And I am not sure that we would see an improvement in the 
Middle East.
    I would like to focus just a second on Yemen. I will ask 
General Fantani, are we assisting the Saudis in the military 
actions they are taking by air over Yemen?
    General Fantini. Congressman, yes, we are. We are providing 
enabling support to the GCC and Saudi Arabia in particular.
    Mr. Sherman. And do we know whether former President Saleh 
is in the country of Yemen? Do we know whether current 
President Hadi is in the country of Yemen?
    General Fantini. Sir, because of the classification of----
    Mr. Sherman. Do we know in a way that you can disclose in 
this room?
    General Fantini. No, I would not feel comfortable answering 
that.
    Mr. Sherman. General Allen, we have all seen the World War 
II movies. The French Government in exile didn't exactly send 
checks and money to those living under Nazi occupation, but in 
Iraq we have got the government in Baghdad paying people in 
Mosul. The money then goes to ISIS to the extent ISIS wants the 
money. They can grab as much of it as they want. But my concern 
here is does the Iraqi Government generate from facilities that 
it controls such as Mosul Dam electricity which then goes into 
ISIS-occupied areas?
    General Allen. I will take that question, sir. There has 
been some work on the Mosul Dam just recently and I want to 
make sure I get you the most----
    Mr. Sherman. We saved the Mosul Dam. We, of course, got no 
credit from it in the Iraqi press or from the Iraqi people. At 
any time in the last few months has the Iraqi Government 
allowed electricity to go----
    General Allen. Yes.
    Mr. Sherman. They have.
    General Allen. That is correct.
    Mr. Sherman. Does ISIL pay for it or do they just charge 
the civilians for it?
    General Allen. No, they don't pay for it, obviously.
    Mr. Sherman. So while we are bombing ISIS, we are giving 
them free electricity or rather Iraq is giving them free 
electricity, sending them money gratuitously, it is an unusual 
way to wage a war. One suggestion I made at the last hearing, I 
would like to run it by you, is should there be a change in the 
color and design of Iraqi currency so as to make invalid and 
worthless the currency that ISIS was able to seize? Now this 
will anger those who are corrupt, those who are evading taxes, 
pretty much those in control of the government in Baghdad.
    Is there serious discussion of making all that currency 
that ISIS seized worthless by doing a currency replacement?
    General Allen. Sir, you have posed these questions before.
    Mr. Sherman. Yes.
    General Allen. They are, I think, very important questions, 
actually for how we would envision this counter offensive 
ultimately. What I would ask is you permit us to either come to 
you in a closed session or permit us to provide you a 
classified response.
    Mr. Sherman. I look forward to getting the classified 
response, but this isn't sources and methods of intelligence. 
This is what color will the currency be? But you are right, we 
wouldn't want to disclose those plans in advance.
    General Allen. That is correct, sir.
    Mr. Sherman. I look forward to getting an answer to these 
questions which as you note I have been posing for quite some 
time and I yield back.
    General Allen. Thank you.
    Chairman Royce [presiding]. And General Allen, if we could 
plan on doing that after we return here in the House, how much 
time do you think it would be necessary for you to access that 
information so that we could have a briefing with the members 
of the committee?
    General Allen. When you return from your--we could do that 
pretty quickly, if you come back, sir.
    Chairman Royce. That would be my request.
    General Allen. It would be helpful, I think, as well, to 
update you on how the Tikrit operation has unfolded.
    Chairman Royce. We have appreciated the prior briefings.
    General Allen. Yes, sir. Be glad to do that.
    Chairman Royce. I would follow up on that. We go to Mr. 
Darrell Issa.
    Mr. Issa. Thank you, Mr. Chairman. General Olson, Marines 
are pretty straight forward and so I heard your answer to the 
earlier question when asked does a two star have the ability to 
perform X, Y, or Z combat mission, you answered the chain of 
command has the ability to beg for the opportunity through the 
chain of command. You answered, do I have the ability to ask? 
Is that correct that you have the authority to ask was your 
answer to do--you have the authority to do?
    General Olson. The commander on the ground's mandate in 
Iraq right now is to advise and assist and build partner 
capacity.
    Mr. Issa. Right, so he has the ability to ask.
    General Olson. Yes, sir. He does.
    Mr. Issa. Okay, I just want to make sure that we got that 
sort of clear that they really don't have combat command 
authority. What they have is the ability to go up the chain of 
command and ask, something similar to the way Vietnam was 
fought where you had to go practically back not just the 
Pentagon, but to the coffee table in the White House sometimes 
before you could get a go ahead.
    Do you think that is the way the war should be conducted? 
In other words, do we need to in short order provide our combat 
leaders, whether they are in an assisting role or quite frankly 
it is air strikes and targets of opportunity and so on, the 
normal ability within a combat arena to make decisions based on 
predetermined if then rather than almost always having to go up 
the chain which can cause a target or an opportunity to 
disappear?
    General Olson. The way I would characterize the strategy is 
that we are executing by, through, and with our Iraqi partners.
    Mr. Issa. Okay, we are executing by, with, and our Iraqi 
partners are Shia partners who are on the ground with Iranian 
operatives, correct?
    General Olson. We are not directly advising or assisting 
any force that is not under the control of the Government of 
Iraq.
    Mr. Issa. Right, but if Shia zone individuals under the 
control of Iraq with Iranian operatives next to them call for a 
strike or assistance, ultimately you are responding as an Iraqi 
response, correct? I don't want to get too far in the weeds, 
but we will just take-you know what? I think I will give up on 
that because I think the Associated Press has made it clear you 
are doing it.
    So let me get back to this committee's primary 
jurisdiction, the use of military force. Currently, the 
President is asking to retain one and get rid of one prior use 
of force. Additionally, he wants world-wide ability to go after 
ISIL, correct? ISIL, ISIS, Daesh, depending upon what name you 
want to use. That is essentially what it is. Just tell me if I 
am wrong?
    General Fantini. That is accurate, Congressman, in terms of 
geographic limitations.
    Mr. Issa. So that begs the real question. In Yemen today, 
the President is currently, and I think appropriately, 
assisting Gulf allies led by Saudi Arabia in trying to 
stabilize the situation which Iran-backed dissidents, not 
dissidents, Iran-backed opportunists, the Houthis, are in fact, 
trying to take that country by force, turn it into a Shia-
controlled nation similar to Iran. That is not in the use of 
force request. It would not be covered. Is that correct?
    General Fantini. Yes.
    Mr. Issa. Okay, so as we speak we are, in fact, in a 
situation which we have combat operations support that is 
likely to need--it certainly doesn't fall under the normal 
global war on terrorism, as a matter of fact, unless I missed 
my prep for this. We just took Hezbollah and Iran effectively 
off the terrorist list, didn't make them good guys, but took 
them off the list. And we now are in a situation in which we 
are using them in Iraq, maybe not as directly, we are using 
people in Iraq, we are using people in Syria that are formerly 
on a terrorist list. We are then fighting them in Yemen and the 
President has not clarified under what authority he plans to do 
that and for how long. Am I missing anything there?
    General Fantini. Sir, I think first, we believe that 
Hezbollah still remains on the list. Number two, you highlight 
an excellent point. It is an extremely complicated environment. 
And we are pursuing this counterterrorism strategy with the 
precision strikes to halt ISIL and additionally as you 
highlight to support our Gulf partners as best we can because 
of the threats in the region.
    Mr. Issa. My time is expiring, but based on the fact that 
we have essentially but two distinctly different groups, ISIS, 
Sunni extremists, and a myriad of Shia extremists in different 
areas, mostly if not all backed by Iran. We are now as a 
committee being asked to consider the authorization for use of 
military force only against half, well, in fact, we would have 
to rely on vague past authorizations for the future and we do 
not have a plan for situations like Yemen.
    So I will close with don't you believe that any 
authorization use of military force has to envision the ability 
and a plan to deal with the fact that in some places we have 
two enemies, ISIS and Iranian-backed groups, and that we will 
be effectively on the ground fighting them in places such as 
Syria and that there currently is no new authorization for 
that. Shouldn't there be an authorization for that or shouldn't 
it be included in the authorization that we are being asked to 
render to the President?
    General Fantini. I believe the intent of the AUMF was to 
afford the geographic flexibility, as well as the flexibility 
to respond across the globe to these types of threats. The 
issues that are associated with Yemen, I would estimate further 
need to be adjudicated in terms of exactly what the Houthis 
truly mean in terms of--or what they truly represent in terms 
of their affiliation and to ISIS, Daesh, and the Shia 
challenges within the region.
    Mr. Issa. So General Clapper, former General Clapper's 
list, worldwide threat assessment did not list Iran or 
Hezbollah where they were near the top at the last time. I just 
want to make sure the record is clear. We know they are still a 
terrorist, a nation backing terrorists. We know Hezbollah is 
still a terrorist organization. But they dropped from the list 
and I always assumed that there are too many good people double 
checking things for that to be a clerical error.
    So Mr. Chairman, I want to thank you for your indulgence. I 
yield back.
    Chairman Royce. Yes, and we are going to go to Mr. Grayson 
for questions and then we are going to go to Mr. Jeff Duncan.
    Mr. Grayson. Thank you, Mr. Chairman. General Allen, how 
many countries have we asked to provide air support in the 
sense of offering to actually execute strikes against ISIS in 
either Iraq or in Syria? How many questions have we asked for 
that kind of support?
    General Allen. Well, when we talk to--I just have to--we 
would have to CENTCOM on that.
    Chairman Royce. You know what I am going to suggest here is 
a second round of questions, but first let us go to Mr. Jeff 
Duncan and then we can come back to our second round. That is 
probably the most efficient way to do it.
    Mr. Grayson. Certainly, Mr. Chair.
    Chairman Royce. Thank you.
    Mr. Duncan. I thank you, Mr. Chairman. I am going to reset 
the clock here, I hope.
    First off, General Olson, I was appalled when I heard about 
elements of the State Department asking the United States 
Marines to leave their weapons behind to be destroyed in Yemen. 
I told Secretary Kerry in this hearing a couple of weeks ago 
never to disarm the United States Marines ever again. And I 
apologize that that happened. And that is how I feel about it. 
I want to make sure that the men under your command have the 
weapons to defend their colleagues and defend this nation and 
our liberty.
    So thank you all for what you do.
    I visited Iraq in November 2012 on CODEL McCaul. And I will 
say that General Austin executed the withdrawal of U.S. forces 
from Iraq in a very professional manner. And I am a huge fan. 
His goal was to not lose another American life in our 
withdrawal. But while we were there, we were concerned about 
the premature withdrawal of U.S. forces. I say premature 
because there was a lot of uncertainty about the readiness of 
the Iraqi security forces, the readiness of their border 
security. There was concern that Iran would fill the void after 
U.S. troops left. ISIS wasn't on the radar screen then but al-
Qaeda was. And al-Qaeda was still in Iraq and I believe al-
Qaeda was just waiting for the U.S. forces to leave to fill 
that void.
    So I disagree with letting the enemy know a time line of 
when American troops are going to withdraw from any theater. 
There is a 3-year deadline in the AUMF which I disagree with. I 
want to--I personally want to make sure that we give commanders 
the ability, the commanders on the ground the ability to do 
their job, the ability to, with the rules of engagement, to 
defeat the enemy.
    But we still have a lot of threats in the region and we 
have seen what happened in Libya. We now see what is going on 
with terrorism in Tunisia, training elsewhere in North Africa, 
what is going on in Yemen, the Iranian-backed Shia militia 
there just opposing a legitimate regime in Yemen. We still have 
AQAP, Boko Haram, Hezbollah, Hamas, Abu Sayyaf and a lot of 
other terrorist organizations around the globe. I am concerned 
that they are all going to join forces. We are already seeing 
that with Boko Haram.
    Let me ask what are we doing with the Kurds? This question 
may have already been asked, General Allen, but how do the 
Kurdish militia play into our overall goal? Because they are 
the only ones doing the heavy lifting in Iraq right now on the 
ground in my opinion with air support and I appreciate that, 
but how do they fit in to this dynamic?
    General Allen. Well, the Kurds play a very important role. 
They are a force for stability. They are an example of an area 
where the social factors and the relationships between and 
among the people within the Kurdish element of the Iraqi 
population have been able to achieve a level of stability and 
prosperity that are an example for the region. So the Kurds 
play a very important social role, I think, both for Iraq, but 
more broadly for the region.
    At a military level, peshmerga and Kurdish forces have been 
successful, as you correctly point out, through the use of 
coalition air power in recovering all of its previous holdings 
and then a bit more. In that respect, without getting into 
specific operational plans, with regard to the counter 
offensive, my very strong suspicions are that the peshmerga and 
the platform of Kurdistan or the KRG will play an important 
role ultimately as the counter offensive unfolds in the North 
and in the Northwest. So we would anticipate that they would 
play an important role in that.
    Mr. Duncan. I think they should. I have been impressed. Did 
any of the weapons from Libya make their way to Syria and then 
in the hands of ISIS, specifically MANPADS or any of that?
    General Allen. Let me take that question and come back to 
you with a classified answer, please.
    Mr. Duncan. Okay. Let me--my time is about up, so I will 
let you answer that question or we can answer it in a 
classified.
    General Allen. I prefer to answer that in a classified 
environment.
    Mr. Duncan. Let me ask you about Yemen. How does Yemen play 
in this scope of combatting ISIS? Is ISIS part of the driving 
force in Yemen or is it a completely different group? Are they 
interconnected? And I will expand on that because I mentioned 
all the other terrorist organizations around the globe. How 
does that fit in to what we are trying to do here to defeat 
this enemy?
    General Allen. We have three principal forces at work. We 
have the Houthis which are a Shia element that is in some form 
or another supported by Iran. We have the regime which is 
failing and we have al-Qaeda which has been a problem for some 
period of time, AQAP it is often called, al-Qaeda in the 
Arabian Peninsula. Those three forces are in contention at this 
particular time, obviously, to restore the territorial 
integrity and the sovereignty of the state.
    So to your point, at this juncture, al-Qaeda which is not 
ISIS, in fact, they are at odds with each other. Al-Qaeda is 
the principal Sunni element, extremist element that is on the 
ground in Yemen. The Houthis are the Shia element on the ground 
with regard to Yemen. And then we have the state which we still 
support.
    We are calling on all parties, obviously, to come to an 
agreement that supports the central government and it is a 
central government that the Saudi-led 10 nation coalition is 
now supporting with military operations. So those are really 
the three contending parties at work.
    Mr. Duncan. Wouldn't you agree the Arab Spring combined a 
lot of those different Shia Sunni elements?
    General Allen. I think the Arab Spring was a catalytic 
effect that created instability in Yemen in particular.
    Mr. Duncan. Right.
    General Allen. One of the realities, I know, with respect 
to Yemen is that as the Houthis grew in prominence and 
capability, it drove Sunni elements into the arms of al-Qaeda. 
It is a very real issue. And al-Qaeda, of course, by virtue of 
its Sunni dent is by no means an ally of the Sunni states in 
that region that we support as well. So that is one of the 
reasons that Yemen is so important to us in terms of dealing 
with the dynamics there. And Yemen, of course, geostrategically 
is located at the southern end of the Bab-el-Mandeb which is 
the exit of the Red Sea which is a major shipping region.
    So Yemen is a very important area for us geopolitically, 
and of course, our long-term relationship with the central 
government is important to us.
    Chairman Royce. Thank you, General Allen.
    Mr. Duncan. Thank you, Chairman. I would ask for a 
classified hearing as well.
    Chairman Royce. Mr. Duncan, we will do exactly that. As a 
matter of fact, we will incorporate those together.
    Mr. Duncan, do you think that makes sense to you?
    General Allen. Let me just say, Chairman, this is about 
ISIL. We will come ready to talk about ISIL, but tell us what 
you want and we will make sure we have got the right people in 
the room.
    Chairman Royce. I will work with Mr. Duncan and others to 
submit those questions in advance, General, in addition to what 
he has already raised today.
    General Allen. Great.
    Chairman Royce. Before the committee.
    General Allen. Thank you.
    Chairman Royce. We will go now to Ileana Ros-Lehtinen, our 
chairman emeritus.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And 
thank you, gentlemen, for your service to our country. Thank 
you very much.
    Brigadier General Fantini, you testified that the Syrian 
opposition train and equip program is set to begin later next 
month. In the past the administration has said that the purpose 
of this Syrian opposition train and equip was to have the 
forces fend off ISIL, not to go on the offensive.
    What will the mission be and will it include fighting 
Asad's forces and will the Syrian opposition fighters be Leahy 
vetted?
    General Fantini. Congresswoman, yes to Leahy vetting. The 
vetting process is very rigorous and essentially continuous.
    To your question of--I am sorry, can you repeat your first 
question?
    Ms. Ros-Lehtinen. Yes, will it be to fend off ISIL?
    General Fantini. Oh, pardon me.
    Ms. Ros-Lehtinen. Or will it be not go on the offensive or 
what exactly will the mission----
    General Fantini. The mission is to train and equip to 
defend their territory, provide security in their territory, 
counter and engage and go offensive toward ISIL.
    Ms. Ros-Lehtinen. It will be to go on the offensive against 
ISIL?
    General Fantini. Eventually, right. But that won't be until 
we can develop enough combat power that they see the conditions 
are right to move. But it is a counter-ISIL force, not a 
counter regime.
    Ms. Ros-Lehtinen. Thank you. And one of the most important 
issues that this committee and the entire Congress can consider 
is the AUMF, the authorization for use of military force. But 
ISIL isn't the only threat that we and the people of the region 
face. And if we are going to defeat ISIL, we need a 
comprehensive approach that addresses ISIL, al-Nusra, other 
terror groups that are fighting in Syria and Iraq, Assad and 
Assad's allies which include Iran, the IRGC, and Hezbollah.
    Does the AUMF give the authority to use force against 
Assad's regime, al-Nusra, Hezbollah, any other fighter, actor 
fighting in Syria and Iraq or is it just limited to ISIL and 
anyone fighting with or alongside that terror group?
    General Fantini. I think it does not give the authority to 
use force against any regime. It is a complicated battle space 
in the Syrian area. But we believe that the AUMF, the 
combination of the 2001 and this new AUMF would afford and 
provide the authority and the flexibility for our forces and 
friendly forces to the U.S. Government to be successful.
    Ms. Ros-Lehtinen. And General Allen, it was reported in the 
news earlier this week that Hezbollah is preparing a major 
offensive against ISIL while the Lebanese Armed Forces, the 
LAF, may not participate in Hezbollah's offensive against ISIL. 
There is certainly going to be some level of coordination with 
Hezbollah and as a result, the patron of the terror group which 
is always Iran.
    What can you tell us about Hezbollah's alleged planned 
defensive? Are there any known ties between Hezbollah and the 
Lebanese Armed Forces? Can you confirm that any intelligence we 
share with the LAF will not be shared with Hezbollah? Can you 
confirm that Iranian generals and tanks are being used in the 
Iraqi campaign in Tikrit? And can you confirm if the United 
States is on any level directly or indirectly coordinating our 
efforts against ISIL with Iran?
    General Allen. Your last question I can confirm that we are 
not coordinating with Iran. And there is no intention to. To 
the other specifics of your question, you deserve a specific 
answer. Let me take that, please, and come back to you with the 
details that you have asked.
    Ms. Ros-Lehtinen. I look forward to that because we want to 
work with our allies, but if those allies are sharing 
information or they are in cahoots with terror organizations, 
we end up unknowingly doing more harm than good in getting 
valuable information and intelligence to our enemies. So I know 
that you will be handling that in a careful manner.
    General Allen. Yes, ma'am. That is a very important 
question. Thank you.
    Ms. Ros-Lehtinen. Thank you very much and thank you for 
your service again, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Royce. We go to Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. And I think that is a 
great idea having that classified briefing and I look forward 
to being there.
    Generals, General, General, and General, I appreciate you 
guys being here in the service to our great country. Without 
the service of you and the leadership of you guys and the 
military, our service men and women, we would not appreciate 
the liberties and freedoms we experience every day. And we 
don't ever want to forget that. So thank you.
    You being the experts and I am glad to see the step up in 
the sorties because when this first started, there was only 
like single digits in the beginning a month, going on to 
degrade ISIS in the beginning. And I am glad to see you have 
stepped that up. And you being the experts, the recommendation 
as far as a tactic that we should pursue to reduce and zero out 
ISIS to where it is no longer a threat, and I look at Nazism 
where you had nation states and nation leaders, this is more of 
an ideology without a nation state. What is your 
recommendation? Can we pursue it with what we are doing and I 
am glad to see the Coalition that is building up and we had a 
classified briefing with you and you were telling me how you 
were doing some of the----
    Chairman Royce. Remember, it was a classified briefing.
    Mr. Yoho. Right, and we shouldn't talk about those things.
    Chairman Royce. Thank you, sir.
    Mr. Yoho. So I won't. That is why I look forward to the 
next one. Can it be done with what we are doing without U.S. 
assistance in your opinions?
    General Allen. Well, U.S. assistance is being applied, sir.
    Mr. Yoho. How much do we need of U.S. assistance? I know we 
need to have some in there. With that coalition, if we are 
directing it and kind of strategizing or as President Bush 
would say the strategery, how much can we rely on the coalition 
partners?
    General Allen. That is a really important question. The 
coalition partners in ways that I think we should all be very 
proud of, have stepped up to the plate in many areas that are 
obvious. Some of their airplanes are flying and dropping 
ordnance every day. Some of their trainers are training, some 
of the special operators are risking their lives just by being 
in the battle space. Those are obvious ways in which the 
coalition has stepped up. There are other ways that are less 
obvious, but really important as well in combining their 
capabilities with us to go after Daesh's finances, to squeeze 
its ability to have operational flexibility.
    Mr. Yoho. And we have cooperation with all these other 
countries doing that same thing, correct?
    General Allen. We do and it is actually quite impressive. 
It is foreign fighters. It is counter finance. It is counter 
messaging. It is building stabilization capabilities. It is 
quite impressive.
    Mr. Yoho. I guess the question I have is how do you break 
that ideology? Why do people want to get into that? How do you 
break that? And I know we can do it militarily and you guys, 
nobody is better than what you guys do than you. But on the 
diplomacy side, thinking about that because what I see and this 
goes back to reading stories to my kids, The Cat in the Hat 
with the green spot that you couldn't get rid of. You put it 
here, you could try to get rid of it. It pops up over here. And 
that is what I see ISIS doing with all the different countries 
it is going into because of that ideology that people are 
bringing into. From a diplomatic standpoint, is there anything 
that you would recommend we do differently?
    General Allen. You said countries that ISIS is going into. 
I think it is a very interesting point. What we are discovering 
is that it is less about countries that ISIS is going into than 
it is the movements locally are seeing an opportunity to 
leverage a relationship with ISIS to accomplish their own 
objectives.
    Mr. Yoho. And that is what I mean.
    General Allen. And that is a really important point. 
Because it gets to the larger issue here. This coalition has 
come together to deal with Daesh as a symptom of a bigger 
problem. But the coalition has also evidenced real interest in 
getting after the broader underlying factors that give rise to 
this. So it is about political capacity. It is about democratic 
process. It is about human rights. It is about the rule of law. 
It is about economic opportunity. It is about having a hope of 
being successful in your lives. And in many of these countries, 
many of these countries where we find organizations like Ansar 
Bait al-Maqdis in the Sinai Peninsula or Boko Haram or Abu 
Sayyaf in the jungles of the Philippines it is because they 
have no hope. People have no hope and they are easily 
susceptible to radicalization and ultimately recruitment for 
the purposes of extremism in these kinds of groups.
    So the coalition is really seeking to understand what these 
underlying factors are so that as individual states and as a 
coalition, we can begin to move toward resolving some of those 
underlying factors that have given rise to organizations like 
Daesh or Boko Haram.
    Mr. Yoho. I have got one more question that I will submit 
and I am out of time. And I thank you for your service and your 
direction. You are our best hope. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you, Dr. Yoho. Mr. 
DeSantis of Florida.
    Mr. DeSantis. Good morning. General Allen, how many U.S. 
service members were killed when we were in Iraq by Iranian-
backed forces and Shi'ite militia?
    General Allen. I will have to get that number for you. It 
is not insignificant.
    Mr. DeSantis. At least hundreds at a minimum.
    General Allen. Yes.
    Mr. DeSantis. And I have seen estimates by one of your 
colleagues that said maybe up to 1500.
    General Allen. We will get the number for you.
    Mr. DeSantis. And Qasem Soleimani, the Quds Force 
commander, he was involved in directing a lot of those 
operations during that time period. Is that correct?
    General Allen. That is correct.
    Mr. DeSantis. So we know that Qasem Soleimani is now 
directing some of these Shi'ite militia who are fighting ISIS. 
I know it has been discussed about our air strikes and how that 
may be working with the Shi'ite militias even though we are not 
doing it explicitly.
    My question is if we were conducting air operations would 
somebody like Qasem Suleimani be a target?
    General Allen. We don't at this time intend to target it.
    Mr. DeSantis. And why is that?
    General Allen. We are in this to assist the Iraqi 
Government in dealing with Daesh. That is the reason that we 
are there, not to go to war with Iran. I think it is very 
important for us to keep that in mind. I will just leave it 
there.
    Mr. DeSantis. When the Shia forces are clearing areas, how 
are they interacting with the Sunni population who is left 
behind? Are they oppressing them or are they trying to have a 
unified country?
    General Allen. That is a very important question. We have 
seen reports of massacres and atrocities. Those reports are 
under investigation. They have been condemned by us. They have 
been condemned by the Iraqi Government. They have been 
condemned by Grand Ayatollah Sistani. But I was just in Iraq 
last week and as Tikrit was kicking off and we did know that 
there were Shia elements that were part of the clearing force, 
I met with the Sunni leaders from Salah ad Din, the province in 
which this is undergoing, under way, and specifically asked the 
question, what do we know about the potential repetition of 
these kinds of atrocities, or these kinds of acts?
    At the time, they were satisfied that this was not 
happening. But they also recognized that in the end when you 
transition from a clearing operation to a holding operation so 
that the clearing force can keep on going, the holding force 
has to look like the population or derive from the organic of 
the population that ultimately is going to be held. To that 
extent, the Minister of Interior, Minister Ghabban, has asked 
for assistance in helping to recover the Sunni police of the 
three provinces, Salah ad Din, Ninawa, and Al-Anbar, ultimately 
to follow behind the clearing forces to become the hold force 
on top of the Sunni population so that we don't end up with 
that dynamic of a Shia irregular clearing force sitting on top 
of and holding a Sunni population. The Iraqis are very 
conscious of that.
    Mr. DeSantis. In fact, a Sunni Arab who sees the 
alternative to ISIS to be oppressed by the Shia, they are going 
to be more likely to want to side with Sunni backed terrorist 
groups if they don't think there is a future for them apart 
from being oppressed by Shi'ites. Do you agree with that?
    General Allen. In the abstract, I would, but I think that 
there have been measures that this government has taken to Iraq 
that fundamentally give the Sunnis and the Shia an opportunity 
to coexist inside the government, inside Iraq, under the 
leadership of Prime Minister Abadi.
    That is why a Shia Minister of Interior, by the way, is 
very interested in reconstituting the Sunni police of the Sunni 
provinces. I think that is a very positive thing.
    Mr. DeSantis. I do, too. Do you believe that Iran has 
provided arms to the Government of Iraq or any of its 
affiliates?
    General Allen. I will take the question. I don't--we will 
take the question. I want to give you the answer you deserve on 
that.
    Mr. DeSantis. And if they are, we do have authorities on 
the books, both at the U.N. and under U.S. law that I think 
would be implicated. So if you can let us know what the status 
of that is and then if we do think that Iran has been doing 
this, then what would the administration's response be, I would 
definitely like to know that.
    General Allen. Thank you for the question. We will take it.
    Mr. DeSantis. Thank you, General. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis. And we 
will recognize Mr. Smith for 3 minutes. We are sorry about 
that, but our witnesses have until 11 a.m.
    Mr. Smith. Thank you for the second round, Madam Chair.
    General Allen, as you know, as all of you know, all of us 
now, President Obama touted Yemen as a significant success 
story, yet today it is imploding, rapidly imploding so much so 
that there has been an intelligence loss of U.S. information, 
according to several news outlets, including the LA Times. And 
I was wondering if you could tell us how serious that breach 
might be? Is it serious? The intelligence services of Yemen 
were just overrun and apparently the files were not destroyed 
fast enough. That could have an impact, certainly on our fight 
against ISIS, but also on all issues relevant to the war on 
terror.
    And also while I deeply appreciate and I am encouraged by 
your statement by the allure of the so-called caliphate has 
been shattered, it is hard to make predictions. I would hope 
that the word diminished might be used because every time we 
think we are making progress, some other moving part comes to 
bear. So I just offer that unsolicited as I hope it is 
shattered, but I am very concerned that it has not been.
    You also testified about disrupting the flow of foreign 
fighters as an urgent concern. I asked you about that earlier, 
but I wonder if you might elaborate very briefly on what new 
best practices are being contemplated so these killers, these 
terrorists, who become hardened in this battle don't return to 
the United States and of course, to Europe, to kill Americans 
and to kill Europeans?
    General Allen. To your first point on the intelligence, 
potential intelligence lost, we will take the question. 
Obviously, the answer would be classified. So we will want to 
come back to you with that. It is a very good question.
    With regard to foreign fighters, the commitment by the 
coalition, I think, has been very impressive in that regard. We 
are not where we want to be because that momentum was developed 
before we began to build our own momentum against it. But it 
operates at several different levels. It is countries adopting 
their own legislative approaches, as I just described. The 
Italians will be prosecuting these traffickers of foreign 
fighters under legislation that is derived directly from Daesh 
and directly from our coalition activities. So we are beginning 
to see countries across the region, we are beginning see the 
activities of the EU helping to create a unity of purpose and 
vision on this issue. We have seen and will continue to see 
best practices being applied on border control measures, the 
sharing of information and intelligence, the sharing of 
personnel name, passenger name records. And that will improve 
over time.
    We all, of course, are nations, especially the Western 
European states and along the United States and Canada, are 
states where privacy is an extraordinarily important aspect of 
who we are as a nation and our population.
    Ms. Ros-Lehtinen. Thank you, General Allen. I know that 
since your time is limited, if you could finish that thought.
    General Allen. Well, we will continue the best practices 
associated with working with indigenous populations and at risk 
populations to reduce the attractiveness of Daesh and similar 
extremist organizations, legislative approaches, individually, 
and across the entire effort, the coalition, and also to 
strengthen the work of the Counter Foreign Fighter Working 
Group which is chaired by The Netherlands and Turkey. And we 
will be meeting next week in Ankara for the first time.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Smith.
    Mr. Engel.
    Mr. Engel. Thank you. Thank you, Madam Chair. I want to 
build on a question that I asked before about the AUMF. Finding 
the right AUMF language is obviously difficult. Finding one 
that can pass Congress is difficult. Republicans and Democrats 
have each attacked what the White House sent up for different 
reasons, for polar reasons.
    How important is it for Congress to pass a new AUMF and 
what would be the consequences if we did not do so? And how 
would our troops and our coalition partners view such a 
development if we did not do so?
    General Allen. A very important question, Mr. Engel. There 
are, as you know, three major areas of discussion within the 
AUMF and we obviously welcome the robust conversation 
associated with those which is the size of the force that could 
be committed, the nature of the force, the duration that that 
force might be committed, and where that force might be 
committed. So those are all issues that deserve a very thorough 
conversation and coordination.
    But there is a fourth area that is really important about 
the AUMF and that is that whatever it looks like at the end, 
wherever the administration and the Congress have ultimately 
agreed that this should--whatever the measure should be 
fulfilled, a strong bipartisan support of the AUMF is an 
extraordinarily important outcome of this because it reinforces 
the reality and the appearance of American strategic leadership 
and it also sends a very clear message to Daesh that its days 
are numbered. That is why the AUMF is so important. We will 
deal with the issues about the size and the duration and the 
location and that is an appropriate platform for us to have the 
kind of conversation with the Congress that the American people 
deserve.
    But an approved, with a strong bipartisan vote of an 
improved AUMF preserves and strengthens America's strategic 
leadership and also puts Daesh on notice that its end is in 
sight.
    Mr. Engel. Thank you, General. I couldn't agree with you 
more. I want one final question about Syria and about Assad. In 
an interview with ``Foreign Affairs,'' Syria President Assad 
asserted that any fighter not working with the Syrian military 
should and I am going to quote him, ``be fought like any other 
illegal militia fighting against the Syrian Army.''
    So when the U.S. trained Syrian opposition fight is 
reintroduced back into the battlefield, will Assad target these 
fighters and obviously this isn't a hypothetical, it is a real 
situation which Members of Congress need to have information 
on. Will the U.S. or other members of the coalition target 
Assad?
    General Allen. I would like to present that comment or the 
answer to that when we have the closed session if we may. It is 
very much on our minds, obviously.
    Ms. Ros-Lehtinen. Thank you, General. Thank you, Mr. Engel. 
We now to Mr. Rohrabacher who is recognized for 2 minutes and 
then 2 minutes for Mr. Sherman and then our witnesses will have 
to depart.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I have got 2 minutes, let me just note 
that I did some work in Vietnam in 1967. I was not in the 
military, but my father was a retired lieutenant colonel in the 
Marines. And when I got back I was dismayed and I remember 
talking to him about what a confusing mess that was in Vietnam 
and which to parrot your words we used earlier to describe the 
challenge that you face.
    And my father told me, he said, ``Well, if you think that 
is a confusing mess, you should have seen what it was like when 
I landed the first DC-3 into the Pusan perimeter.'' So we have 
faced these confusing messes before. It was important for us, 
as my father described, had we not been successful in Korea, 
Japan would have been neutralized. It would have changed the 
whole nature of the Cold War and the Soviets may have won.
    I think what we are doing right now to confront Daesh will 
either basically eliminate our deal with a challenge that is of 
that magnitude because if we don't and if President al-Sisi 
does not win in Egypt, does not overwhelm those people who are 
trying to destroy him and replace him with a caliphate 
government and if you folks don't succeed, we may have a world 
in which a huge chunk is controlled by radical Islamists who 
want to destroy Western civilization. So we wish you success. I 
believe that the strategy of using insurgencies as we did in 
Afghanistan with the Northern Alliance works. Your success in 
Anbar Province reaffirms that.
    I would hope that our commitment to assist the Iraqi 
Government in this challenge does not get in the way of 
successfully implementing that strategy that we know that will 
work. So thank you all very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher. Mr. Sherman.
    Mr. Sherman. Thank you. I know that we will get into it in 
closed session, but I will reiterate that I am confused that on 
the one hand we tout the failure of ISIS to provide governance, 
their inability to provide for the people under their control 
and then at the same time the Iraqi Government helps them 
provide governance with free electricity, sending salaries, 
etcetera.
    What I want to deal with in open session is whether the 
AUMF should include Assad or whether it should be limited to 
ISIS? Now in the absence of ISIS and before the beheadings, 
this country wanted to have as little military involvement in 
the Middle East as possible. Now Americans see this as a 
problem that we have to confront, but we have to confront it 
carefully.
    On the one hand, we have to go after ISIS for what they 
have done. On the other hand, there is this war between 
Shi'ites and Sunnis and it is not our role to be on one side of 
that or the other. The most evil element of the Shi'ite 
alliance is Assad. He hasn't beheaded anybody on YouTube, but 
he has killed close to 200,000 innocent people.
    Should, and General, I realize there will be others at the 
State Department that will give us some input on this, but 
should the AUMF authorize the President, should he wish to, to 
go after not only ISIS, but also to go after Assad, perhaps not 
with the goal of destroying either, but at least confining 
mowing the grass of both of these evil elements?
    Ms. Ros-Lehtinen. Thank you so much. We have 10 seconds.
    General Allen. The answer is that this--at last if the 
State Department permits me to speak about this, the AUMF was 
submitted as a counter Daesh measure. It does not envisage 
provisions to deal with Bashar al-Assad, but that is an 
important and a separate conversation to be had, but in the 
context of the provided and draft legislation, that is about 
Daesh.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Issa. Madam Chair, I would ask unanimous to then have 
just 1 minute to plant a question so it could be dealt with 
later?
    Ms. Ros-Lehtinen. Yes, Mr. Issa asked for unanimous consent 
to put something on the record and make a statement.
    Mr. Issa. Very quickly, Generals, when we go into 
classified session in 2 or so weeks, the President has called 
for regime change in Syria. He also has refused to participate 
in a no-fly or a buffer zone even for humanitarian relief in 
Northern Syria. As a result, Turkey is very well known not 
cooperating with us in providing the normal air cover that 
would shorten our distances for attacks both in Syria and in 
Iraq.
    So during the classified session, I would ask that you be 
prepared to provide us with the information on what is going, 
what the impediments were, what the logistical changes would be 
if we were to come to an agreement with the Turks to provide 
that no-fly zone and a buffer zone and the humanitarian relief 
in Syria rather than the millions that are in Lebanon, Jordan, 
Turkey, and even a few scattered around Europe. So if I could 
ask and get an agreement that you would include that in the 
material brought to the classified briefing, that would be 
helpful to me.
    General Allen. I would be glad to.
    Mr. Issa. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Issa, and we 
certainly appreciate the time of our witnesses today. These are 
critical issues. We look forward to following up when we 
return, particularly in the area of the Tikrit mission and 
Iran's role. And with that, Chairman Royce's committee is 
adjourned.
    [Whereupon, at 11:05 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
